<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 115-855]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-855

                        THREATS TO THE HOMELAND

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            OCTOBER 10, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-945 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
PROB PORTMAN, Ohio                   CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
JON KYL, Arizona                     DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
        Michael J. Lueptow, Chief Counsel for Homeland Security
                    Daniel P. Lips, Policy Director
               M. Scott Austin, U.S. Coast Guard Detailee
               Margaret E. Daum, Minority Staff Director
               J. Jackson Eaton, Minority Senior Counsel
           Julie G. Klein, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Portman..............................................    13
    Senator Peters...............................................    16
    Senator Kyl..................................................    19
    Senator Hassan...............................................    21
    Senator Jones................................................    23
    Senator Heitkamp.............................................    25
    Senator Harris...............................................    28
    Senator Paul.................................................    30
    Senator Lankford.............................................    33
    Senator Carper...............................................    35
    Senator Hoeven...............................................    38
    Senator Daines...............................................    40
Prepared statements:
    Senator Johnson..............................................    53
    Senator McCaskill............................................    54

                               WITNESSES
                      Wednesday, October 10, 2018

Hon. Kirstjen M. Nielsen, Secretary, U.S. Department of Homeland 
  Security.......................................................     6
Hon. Christopher A. Wray, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     9
Russell Travers, Acting Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........    11

                     Alphabetical List of Witnesses

Nielsen, Hon. Kirstjen M.:
    Testimony....................................................     6
    Prepared statement...........................................    58
Travers, Russell:
    Testimony....................................................    11
    Prepared statement...........................................    76
Wray, Hon. Christopher A.:
    Testimony....................................................     9
    Prepared statement...........................................    67

                                APPENDIX

Family Apprehensions Chart.......................................    83
UAC Apprehensions Chart..........................................    84
Terrorism Attacks, Deaths Chart..................................    85
Kent Letter......................................................    86
DHS OIG Report...................................................    89
Responses to post-hearing questions for the Record:
    Ms. Nielsen..................................................   114
    Mr. Wray.....................................................   195
    Mr. Travers..................................................   206

 
                        THREATS TO THE HOMELAND

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 8:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Hoeven, 
Daines, Kyl, McCaskill, Carper, Heitkamp, Peters, Hassan, 
Harris, and Jones.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to thank all of our witnesses first for your service 
to this Nation. I know none of your jobs is easy, but they are 
incredibly important, so I want to thank you for taking the 
time for your testimony and for coming before us here today, 
and I look forward to your oral testimony and your answers to 
our questions.
    I do want to start off by also thanking the audience for 
being here. This is an annual hearing we have been talking 
about the very serious threats facing our Nation, so it is a 
serious hearing, and I just want to warn everybody that your 
responsibility in the audience is to listen, not to 
participate. So any kind of disruption, either verbal or signs, 
whatever, will be dealt with immediately by the Capitol Police, 
and you will be asked to leave. So, again, please sit and 
listen to everything respectfully.
    It is hurricane season, and, unfortunately, we have a 
Category 4 hurricane, now bearing down on the Florida 
Panhandle, so I do want to make sure that we all keep anybody 
in the pathway of Hurricane Michael in our thoughts and 
prayers. Secretary Nielsen, obviously, I think the Federal 
Emergency Management Agency (FEMA) has really stepped up to the 
plate, and we have learned a lot of lessons from these prior 
natural disasters. I am sure you are in a pretty good position 
to do everything we can to aid the State and local emergency 
first responders to this hurricane as well.
    Our Committee has a pretty simple mission statement: to 
enhance the economic and national security of America and 
promote more efficient and effective government. Within that 
mission statement, we have established four priorities of 
things that we are really trying to concentrate to enhance the 
economic and national security.
    The first one is border security. I am sure we will be 
talking a lot about that today. We have held more than two 
dozen hearings on various aspects of our border, and, 
unfortunately, I have to say our border is not secure--not even 
close.
    If we can put up our first chart\1\? A hearing would not be 
a hearing with me as Chairman without some charts. We have had 
a real problem in terms of incentives our own broken legal 
immigration system creates for people coming into this country 
illegally. This first one will highlight the incentives for 
family units to come across the border.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    In 2015, the Flores Settlement was reinterpreted, and you 
can see the result. We do not have final 2018 figures, but we 
are already exceeding the record years of 2016 and 2017 of 
people coming to this country illegally as family units. It is 
a problem that has to be fixed. This Committee is working on a 
bill called the ``Families Act'' to try and address that 
problem with the Flores reinterpretation. I am looking forward 
to working with the Administration and all of my colleagues to 
actually fix one problem--not comprehensive immigration reform, 
but just identify a particular problem, hopefully in a 
nonpartisan way, looking at facts, figures, actually fix the 
problem.
    The next chart\2\ deals with another issue which has not 
been solved: unaccompanied children. I think the cause of this 
is pretty obvious. In 2012, Deferred Action on Childhood 
Admissions (DACA) was implemented, and you can see the results. 
I know we called this a humanitarian crisis in 2014. We got 
pretty good at apprehending, processing, and dispersing 
children across the country. Senator Portman has done a great 
job of talking about just the problems in dealing with this 
large number of children coming in, taking a very dangerous 
journey through Mexico into our country. Again, that is 
something Secretary Kirstjen Nielsen is having to deal with 
because we have a broken legal immigration system and we do not 
have secure borders.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    Our next area of priority really is cybersecurity. I do 
want to enter into the record a letter I received from Suzette 
Kent,\3\ the Chief Information Officer (CIO) of the 
Administration working within the Office of Management and 
Budget (OMB), talking about the real inadequacy of our Federal 
Government's cybersecurity. In this letter she cites that, 
``OMB recently published a Cyber Risk Determination Report and 
Action Plan. The report found that Federal agencies do not 
possess or properly deploy capabilities to detect or prevent 
intrusions or minimize the impact of intrusions when they 
occur.''
---------------------------------------------------------------------------
    \3\ The letter referenced by Senator Johnson appears in the 
Appendix on page 86.
---------------------------------------------------------------------------
    She goes on to cite some statistics: The Fiscal Year (FY) 
2017 Annual Federal Information Security Management Act (FISMA) 
Report to Congress noted that from January 2016 through April 
2017, the National Cybersecurity Protection System (NCPS) 
detected only 1,600 of 44,823 incidents across the Federal 
civilian networks via the EINSTEIN sensor suite. That is a 
3.56-percent detection rate. In addition, NCPS detected only 
379 of 39,171 incidents across Federal civilian networks via 
the EINSTEIN sensor suite from April 2017 to present. That is a 
1-percent detection rate. So total from January 2016 to the 
present, our EINSTEIN cybersecurity protection system within 
the Federal Government is only detecting 2.4 percent of the 
incidents. I am assuming that is not a real good detection 
rate.
    Cybersecurity is an incredibly complex issue. There is 
nothing easy about it whatsoever, and so I am sure we will be 
talking about that today as well.
    Our third area of priority is really critical 
infrastructure, and I am glad to see that the Department of 
Homeland Security (DHS) has now issued their strategy on 
electromagnetic pulse (EMP), and geomagnetic disturbance (GMD) 
in terms of that threat to our electrical system. We will be 
looking at that. I have scanned it. I have not been able to 
read it in great detail. But we need to do a whole lot more on 
that.
    Then, finally, we are going to be talking--our fourth area 
of priority is really countering terrorism and extremism in any 
form. We have one final chart.\1\ This is where I think there 
is some marginally good news. The State Department issues a 
study called, the Study of Terrorism and Response to Terrorism 
(START), and I think this is pretty dramatic in terms of the 
number of attacks, the number of deaths due to terrorism. This 
is a very imperfect report. I realize that, and there has been 
kind of breaks in how we collect the data. But I think the 
trends are still pretty interesting. You can see the real spike 
in 2014. These are really deaths, terrorist attacks, a lot of 
them associated with Islamic State of Iraq and Syria (ISIS) in 
Iraq. And you can see when we actually deal with the problem, 
let us face it, we have taken away the caliphate. We have taken 
away that territory, and you can see the result in terms of 
progress in terms of total deaths due to terrorism.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    So, again, we have a lot to talk about. I do not want to 
continue on with my opening comments, and I will turn this over 
to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\2\

    Senator McCaskill. Thank you, Mr. Chairman, and thank you 
all for being here today. I appreciate how difficult your jobs 
are and how you have to stay focused on your priorities, 
sometimes with so much political chaos swirling around you that 
it has to be really hard on some days to keep the blinders on 
and do your work that the American people are depending on. I 
want you to know I appreciate those challenges, and many of us 
here, while we may be disappointed at various outcomes that 
your agencies are responsible for, there are many of us that 
realize that you have some of the toughest jobs, and your 
responsibility is so huge.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 54.
---------------------------------------------------------------------------
    I want to particularly express to Director Christopher Wray 
how much I respect the men and women that you lead. I had been 
honored to have an opportunity to work with them shoulder to 
shoulder as a prosecutor for many years. And they are 
dedicated, they are nonpartisan, they get up every day and give 
it everything they have got. And there are really a lot of 
reasons that Americans should be very proud of the Federal 
Bureau of Investigation (FBI), and I want to just say that 
before we begin, and make sure that you communicate that to 
them, how many of us around the country understand the work 
they are doing and how important it is and how we need to keep 
politics out of their way.
    In my State and across the country, I think one of the 
biggest threats that we have faced in the last several years in 
terms of deaths to the American citizens and to people in 
Missouri is the opioid epidemic. It is a public health crisis, 
but it is also a border security crisis. The border may seem 
far away from Missouri, but the epidemic is now being fueled by 
dangerous drugs that transnational criminals organizations 
(TCOs) are smuggling into our country through our mail and also 
through our ports of entry (POEs) at the border.
    Earlier this year I released a series of reports from the 
minority staff of this Committee analyzing efforts taken by the 
Department of Homeland Security to stem this crisis. The 
reports' findings were ominous. The seizures of illicit 
fentanyl, the most fatal opioid that my citizens in Missouri 
and others in their States face, by U.S. Customs and Border 
Protection (CBP) are increasing dramatically. Despite this, we 
have still failed to adequately resource the ports of entry 
where the overwhelming majority of these opioids enter the 
country. There has been an awful lot of emphasis on getting 
Border Patrol agents along the border and securing the length 
and breadth of our border, but we have not focused enough on 
adequately resourcing the ports of entry as it relates to these 
illegal drugs coming into our country.
    Traffickers are also smuggling narcotics into this country 
through the mail, and Senator Portman has worked on this. Many 
of us have. Our report found that mail facilities have the 
largest number of individual seizures of opioids. Even though 
the Postal Service alone, apart from carriers like Federal 
Express (FedEx) and the United Parcel Service (UPS), processes 
more than 1.3 million packages every day, we have fewer than 
400 postal port officers to inspect them. And sure enough, just 
last week, the DHS Inspector General (IG) found that CBP's 
international air mail inspection is not effective to stop 
illegal drugs from entering the United States.
    I am very glad, Secretary Nielsen, that CBP has agreed with 
the IG's recommendation to conduct a cost-benefit analysis to 
determine what additional staff and resources are necessary to 
adequately address the threat from opioids in the mail. I look 
forward to that analysis when it is completed and working with 
you to fix the problem, to get you the resources that are 
necessary to address this.
    In addition to the threat posed by the smugglers and the 
traffickers, we also face threats online. Nearly everyone 
recognizes that Russia interfered in the 2016 election, and 
there is no reason to expect this sort of interference will 
just go away in the future. DHS is not responsible for 
administering elections, of course, but it does offer support 
to our State and local election officials to help strengthen 
and secure their systems.
    We are now less than 4 weeks away from the midterm 
elections, with early voting already underway in several 
States. I hope to hear an update from Director Wray and 
Secretary Nielsen about the nature of the threat and the 
confidence that our systems and personnel are prepared to 
handle it.
    Hackers can do more than just interfere with election 
systems. DHS and the FBI issued a startling alert in March, 
putting critical infrastructure owners and operators on notice 
that the Russian Government was targeting a number of sectors, 
including nuclear, energy, water, and aviation. Just last week, 
the Department of Justice (DOJ) charged seven Russian 
intelligence officers with conducting cyber attacks against 
anti-doping agencies, athletes, and others in retaliation for 
their opposition to Russia's State-sponsored doping program.
    A witness at one of our hearings just last month testified 
that this new era is akin to cyber trench warfare. All this 
hostile activity takes place in that gray space where the 
aggression from an adversary does not necessarily elicit a 
formal aggressive response. The American people maybe cannot 
know all that we are doing, but it is important for this 
Committee to understand that we are dealing with this 
aggression in a way that not only meets that aggression but 
counters it in a way that provides a deterrent for future 
actors like Russia that is trying to interfere in our way of 
life.
    There unfortunately is not enough time to discuss in any 
hearing all the threats that our country faces. That is why I 
am glad the Chairman held a hearing last month on the evolving 
threats that we face, which I know Secretary Nielsen has worked 
hard on, from drones and the vulnerability of our cyber supply 
chain.
    I think the Chairman would agree that when our Committee 
has been alerted to a new threat, we have tried to work in a 
very bipartisan manner to address it. Just last week two bills 
the Chairman and I worked on closely together passed the 
Senate: the Cybersecurity and Infrastructure Security Agency 
Act (CISA) and our countering drone bill, which the President 
just signed into law. Both of those measures will go a long way 
toward arming agencies with the tools they need to keep 
Americans safe.
    So I am glad to have all of you here today to talk about 
the threats we face and what to do about them and, most 
importantly, what we can do to help.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    I did forget to ask consent to have my written prepared 
statement be entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary Nielsen. I do.
    Mr. Wray. I do.
    Mr. Travers. I do.
    Chairman Johnson. Please be seated.
    Our first witness is the Honorable Kirstjen Nielsen. 
Secretary Nielsen is the Secretary of the Department of 
Homeland Security. On December 6, 2017, Secretary Nielsen was 
sworn in as the sixth Secretary of DHS, and she previously 
served as the White House Deputy Chief of Staff. Secretary 
Nielsen.

TESTIMONY OF THE HONORABLE KIRSTJEN M. NIELSEN, SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Nielsen. Good morning. Chairman Johnson, Ranking 
Member McCaskill, and distinguished Members of the Committee, 
it is a privilege to appear before you today to discuss how the 
Department of Homeland Security is confronting worldwide 
threats. I ask that my written testimony be submitted for the 
record,\1\ and I will give you some highlights in oral 
testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Nielsen appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    First I wanted to spend a moment on natural disasters. As 
the Chairman said, right now we have a major Category 4 
hurricane approaching the gulf coast of the United States. This 
is an incredibly serious storm. We are expecting damaging 
winds, life-threatening storm surge, deadly flash flooding, and 
more. I urge everyone watching this and everyone at home in its 
path to heed the warnings and listen to local authorities.
    DHS and our Federal emergency management agencies stand 
ready to support the local response. We are prepositioned and 
ready to go, and the thoughts and prayers of the Nation are 
with those in the storm's path.
    On the subject of today's hearing on manmade threats, 
though, I want to first note that we are witnessing tectonic 
shifts in the threat landscape. Whether it is terrorists, 
transnational criminals, or hostile nation-states, the bad guys 
are finding cracks in our defenses and are exploiting them 
through novel ways to attack us.
    My Department will soon release an updated strategic plan 
that will highlight how we are taking a holistic approach to 
respond in this new age of threats. We call it our ``resilience 
agenda.''
    Last month, I spoke at George Washington University (GWU) 
about five major changes in the threat landscape. Today I would 
like to highlight those changes, how we are meeting them, and I 
will submit, as I said, a longer statement for the record.
    First we must recognize that the home game and away game 
are no longer distinct. They are simply one and the same.
    After September 11, 2001 (9/11), our strategy was to take 
the fight to enemies abroad so we did not have to fight them 
here at home. Unfortunately, that is no longer the world in 
which we live. Our enemies do not respect borders and are not 
constrained by geography. Today's threats exist in a 
borderless, and increasingly digital, world. So we are changing 
our operating posture to follow suit. We are integrating 
foreign and domestic threat mitigation activities, forward-
deploying our people to source zones, and partnering wherever 
possible so we can take an end-to-end approach to dismantling 
threat networks.
    Second, terrorism and transnational crime have spread 
across the globe at fiber-optic speed. Whether it is global 
jihadists or super cartels, we are seeing our enemies 
crowdsource their operations and spread chaos like never 
before.
    After 9/11, we faced a centrally directed terror threat. 
Today the threat can exist virtually anywhere at any time. 
Self-radicalized terrorists are appearing across the globe and 
hiding in virtual safe havens online. Groups such as ISIS and 
al-Qaeda now direct, finance, and inspire attacks from their 
smartphones, turning Twitter followers into terrorist foot 
soldiers.
    Last week the President released a bold new 
counterterrorism strategy laying out the path to victory 
against these fanatics, and he has directed us to step up the 
fight against transnational criminal organizations.
    Criminals are exploiting the same environment and are 
spreading rapidly. Outsourcing their work, diversifying the 
activities and cooperating with ever wider cabals of identity 
forgers, money launderers, smugglers, traffickers, drug 
runners, and killers. They are not only embedding their 
enterprise further in the physical world; they are also selling 
their illicit wares in the virtual world.
    In the past 2 years, DHS has put in place sweeping security 
enhancements to confront these dual threats. For instance, we 
are securing the border with new wall, personnel, and 
technology. We now require every nation on Earth to start 
exchanging critical threat data with us to make it harder for 
the bad guys to reach our territory undetected. We ramped up 
screening and vetting of foreign travelers, including requiring 
deeper background checks, deploying advanced technology, and 
operationalizing a ground-breaking new national vetting center.
    We have put in place the most significant changes to 
aviation security in a decade, and we are working with the tech 
sector to make it harder for terrorists and criminals to 
weaponize the Web.
    Third, we are witnessing a resurgence of nation-states' 
threats. Countries such as China, Iran, North Korea, and Russia 
are willing to use all elements of national power to undermine 
us, and the overall threat from foreign adversaries is at its 
highest levels since the Cold War. This is not a fair fight. 
Neither private companies nor citizens are equipped to oppose 
nation State threats alone, so DHS is forging nationwide 
partnerships to protect our country.
    With weeks to go until the midterms, top of mind for most 
Americans is the Russian interference in our 2016 elections. 
This was a direct attack on our democracy. We should not, 
cannot, and will not tolerate such attacks, nor let them happen 
again. In the past 2 years, DHS has worked hand in hand with 
officials in all 50 States and the private sector to make our 
election infrastructure more secure than ever by sharing 
intelligence, forward-deploying cyber experts to do voluntary 
scans and secure systems, and promoting best practices. By the 
midterms next month, our network security sensors will cover 90 
percent of registered voters, and on election day we will be 
out in full force and hosting a virtual nationwide situation 
room to assist our partners.
    DHS is also undertaking new partnerships with industry, 
interagency partners such as the FBI, and international 
stakeholders to counter foreign interference in our democracy 
and to prevent adversaries from infiltrating U.S. companies and 
critical industries.
    Fourth, cyber attacks now exceed the risk of physical 
attacks. Do not get me wrong. Terrorists, criminals, and 
foreign adversaries continue to threaten the physical security 
of our people. But cyberspace is the most active battlefield, 
and it extends into almost every American home.
    For instance, the viral spread of volatile malware has 
reached the pandemic stage, a worldwide outbreak of cyber 
attacks and cyber vulnerabilities. We saw it last year when 
both Russia and North Korea unleashed destructive code that 
spread across the world, causing untold billions in damage.
    In response, the White House and DHS have released new 
cyber strategies that outline how we are changing the way we do 
business. In July, we hosted the first-ever National 
Cybersecurity Summit where I announced the launch of the DHS 
National Risk Management Center (NRMC). This will serve as a 
central hub for government and private sector partners to share 
information and to better secure the digital ecosystem 
together. We are also driving forward ambitious supply chain 
security efforts to identify upstream weaknesses before they 
have downstream consequences. And perhaps most importantly, DHS 
is working with our partners throughout the Administration to 
hold cyber attackers accountable.
    The United States has a full spectrum of options--some 
seen, others unseen--and we are already using them to call out 
cyber adversaries, to punish them, and to deter future bad 
behavior.
    Additionally, I want to thank this Committee for its hard 
work to authorize the Cybersecurity and Infrastructure Security 
Agency at DHS. We hope the House will pass this vital 
legislation next month as the Agency is the cornerstone to 
protect our U.S. networks.
    Fifth and finally, emerging threats are outpacing our 
defenses. Unmanned aerial systems (UAS), often referred to as 
``drones,'' are a prime example. Terrorists and criminals are 
already using drones to surveil, smuggle, kill, and destroy, 
and our country is in the crosshairs. Until now, we have been 
nearly defenseless. I want to thank this Committee for helping 
us to secure the authorities to identify, track, and mitigate 
dangerous drones in our homeland through the Federal Aviation 
Administration (FAA) Reauthorization Act, as Senator McCaskill 
just mentioned. This was a monumental achievement, and we have 
already begun planning for how to use these authorities to 
protect Americans.
    At DHS we are also concerned about weapons of mass 
destruction (WMD). Terrorists and nation-states continue to 
pursue the development of chemical and biological weapons to 
conduct attacks. Last December, I formed the DHS Countering 
Weapons of Mass Destruction (CWMD) Office, one of the most 
important DHS reorganizations in years. But the office does not 
have all of the authorities needed to defend our country 
against chem and bio threats. The House passed legislation to 
fix this vulnerability, and we urgently need the full Senate to 
do the same. I again thank this Committee for working with us 
to get this done as soon as possible.
    In closing, I cannot tell you how proud I am to lead the 
240,000 men and women of the Department of Homeland Security. 
It is a truly humbling experience. I want to thank them and 
their families for their service, sacrifices, and dedication to 
our great Nation. And I want to thank each of you for 
supporting them and recognizing their patriotism. Every day 
they roll up their sleeves and go to work to protect the 
homeland and to build a better and safer America. They enforce 
the laws passed by Congress, they believe in accountability, 
and they are relentlessly resilient.
    Thank you again, and I look forward to your questions about 
the myriad threats that face the homeland today.
    Chairman Johnson. Thank you, Secretary Nielsen.
    Our next witness is the Honorable Christopher Wray. 
Director Wray is the Director of the Federal Bureau of 
Investigation. On August 2, 2017, Director Wray was sworn in as 
the eighth FBI Director. He previously served as Assistant 
Attorney General of the Department of Justice in charge of the 
Criminal Division. Director Wray.

 TESTIMONY OF THE HONORABLE CHRISTOPHER A. WRAY,\1\ DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Thank you. Good morning, Chairman Johnson, 
Ranking Member McCaskill, Members of the Committee. I am 
honored to be here to discuss the serious and evolving national 
security threats we face and our efforts to counter those 
threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Wray appears in the Appendix on 
page 67.
---------------------------------------------------------------------------
    National security remains the FBI's top priority, and 
counterterrorism is still a paramount concern, but that threat 
has changed significantly since 9/11. We are not just worried 
about large, structured terrorist organizations like al-Qaeda 
plotting large-scale, spectacular attacks in big cities like 
New York and D.C., although that threat definitely still 
exists. Now, of course, we also face groups like ISIS which use 
social media to lure people in and inspire them remotely to 
attack whenever and wherever they can.
    And we now face homegrown violent extremists (HVEs), who 
self-radicalize at home and are prone to attack with very 
little warning. This HVE threat has created a whole new set of 
challenges with a much greater number, much greater volume of 
potential threats, and each one of them with far fewer dots to 
connect and much less time to prevent or disrupt an attack. 
These folks are largely radicalized online, and they are 
inspired by the global jihadist movement.
    Right now, as I sit here, we are currently investigating 
about 5,000 terrorism cases across America and around the 
world, and about 1,000 of those cases are homegrown violent 
extremists, and they are in all 50 States.
    In the last year or so, we have made hundreds of arrests of 
terrorism subjects. Those include things like the arrest of a 
guy plotting to attack San Francisco's Fishermen's Wharf on 
Christmas Day with a combination of vehicles, firearms, and 
explosives; or the arrest, Mr. Chairman, of a woman in your 
home State, a Wisconsin woman maintaining a virtual library of 
instructions on how to make bombs, biological weapons, and 
suicide vests to assist self-proclaimed ISIS members. We have 
also disrupted a plot to blow up a shopping mall in Miami or to 
blow up a number of the celebrations of July 4th in Cleveland.
    In the cyber arena, the threat continues to grow, and the 
more we shift to the Internet as the conduit and the repository 
for everything we use and share and manage, the more danger we 
are in. Just last week, as Senator McCaskill noted, the 
Department of Justice announced indictments of seven Russian 
military intelligence officers for, among other things, hacking 
American citizens and organizations as part of an effort to 
distract from Russia's State-sponsored doping program.
    Nation-state adversaries, and China in particular, also 
pose a serious threat as they seek our trade secrets, our 
ideas, and our innovation. And they are using an expanding set 
of non-traditional methods to pursue their goals like cyber 
intrusions, foreign investment, corporate acquisitions, and 
supply chain threats.
    The threat of economic espionage affects businesses in 
every region and every sector of the United States, from big 
cities to rural areas, from big corporations to innovative 
startups, from chemicals to agriculture. But China is not the 
only adversary looking to steal our ideas and innovation. In 
March, in one of our cases, indictments were unsealed against 
nine State-sponsored Iranian hackers who were affiliated with 
the Mabna Institute, a private government contractor based in 
Iran. They were charged with stealing 31 terabytes of 
proprietary data from 30 American companies and scores of 
universities and compromising hundreds of universities all 
around the country and throughout the world.
    As the midterm elections approach, of course, the FBI is 
also working with our interagency partners to identify and 
counteract the full range of foreign influence operations 
targeting our democratic institutions and values.
    Last fall I established at the FBI a new Foreign Influence 
Task Force which brings together the FBI's expertise across 
disciplines. We are talking about counterintelligence, cyber, 
criminal, and even counterterrorism to root out and respond to 
foreign influence operations.
    In addition to investigations and operations going on in 
all of our field offices around the country, the Foreign 
Influence Task Force is focused on information and intelligence 
sharing with our partners in the intelligence community (IC) as 
well as with our State and local partners to establish a common 
operating picture. The task force is also focused on building 
even stronger relationships with technology companies through 
classified briefings and the sharing of actionable intelligence 
so that they can better secure their networks, products, and 
platforms.
    In conclusion, we face serious and evolving national 
security threats, and staying ahead of those threats is a 
significant challenge. But the strength of any organization is 
its people. Every day at the FBI I see people tackling their 
jobs with strength, with honesty, and with professionalism. The 
threats we face as a Nation have never been greater, and the 
expectations of the FBI have never been higher. But the men and 
women of the FBI continue to meet and exceed those expectations 
every day. I am proud of the FBI's work, but I am even more 
proud to be part of it.
    Thank you for having me here today, and I look forward to 
answering the Committee's questions.
    Chairman Johnson. Thank you, Director Wray.
    Our third witness is Russell Travers. Mr. Travers is the 
Acting Director of the National Counterterrorism Center (NCTC). 
Acting Director Travers has been in his position since December 
24, 2017. He previously served as the NCTC's Deputy Director 
and as a Special Assistant to the President and Senior Director 
for Transnational Threat Integration and Information Sharing on 
the National Security Council (NSC).
    I believe this is your first time testifying before this 
Committee under my chairmanship, but I will say that that 
introduction does not do your long government service justice. 
You started out in 1978 as an Army intelligence officer.
    Again, welcome, and we look forward to your testimony.
    Mr. Travers. Yes, sir, I am really old. [Laughter.]

  TESTIMONY OF RUSSELL TRAVERS,\1\ ACTING DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Travers. Chairman Johnson, Ranking Member McCaskill, 
and members of the Committee, it is a privilege to be here 
representing the men and women of the National Counterterrorism 
Center to discuss threats to the homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Travers appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    In the years since 9/11, the U.S. counterterrorism 
community and its many partners have achieved significant 
successes against terrorist groups around the world. Most 
notably, coalition operations against ISIS in Iraq and Syria 
are depriving the group of its last territorial holdings in the 
so-called caliphate. In addition, ongoing counter-terrorism 
(CT) efforts across Africa, the Middle East, and South Asia 
continue to diminish the ranks of al-Qaeda and ISIS, removing 
dozens of experienced leaders and operatives. Interagency 
efforts to enhance our defenses at home, including strengthened 
aviation security measures and border control initiatives, have 
resulted in substantial progress in safeguarding the homeland 
from terrorist attacks.
    There is indeed a lot of good news, but we need to be 
cautious because challenges remain. I will highlight just 
three.
    First, military operations have bought us time and space as 
we address a global terrorist threat. But the diverse, diffuse, 
and expanding nature of that threat remains a significant 
concern.
    After 9/11, we were primarily focused on a single piece of 
real estate in Afghanistan and Pakistan. Seventeen years later, 
as Director Wray mentioned, we have a homegrown violent 
extremist threat. We have almost 20 ISIS branches and networks 
ranging from hundreds to thousands of individuals around the 
globe, al-Qaeda and its branches and affiliates, tens of 
thousands of foreign fighters that flock to Iraq and Syria from 
100 countries, and Iran and its proxies. In toto, our terrorist 
identities database has expanded by well over an order of 
magnitude since 2003. There will always be an important role 
for military force in dealing with this threat, but the 
resonance of the ideology will not be dealt with by military or 
law enforcement operations alone. The world has a lot of work 
to do in the non-kinetic realm to deal with radicalization and 
underlying causes.
    The second challenge stems from terrorists' ability to 
exploit technology and the attributes of globalization. They 
are good at it, and they are innovative. We have seen the use 
of encrypted communications for operational planning and the 
use of social media to spread propaganda and transfer knowledge 
between and amongst individuals and networks. We are in the 
early stages of seeing terrorist use of drones and UASs for 
swarm attacks, explosive delivery means, and even assassination 
attempts. High-quality fraudulent travel documents will 
increasingly undermine the name-based screening and vetting 
system and threaten border security. We will see greater use of 
cryptocurrencies to fund operations, and the potential 
terrorist use of chemical and biological weapons has moved from 
a low probability eventuality to something that is considered 
far more likely. In many cases, terrorist exploitation of 
technologies outpaced the associated legal and policy framework 
needed to deal with that threat.
    And the third challenge relates to our ability to process 
and analyze ever expanding amounts of data in order to uncover 
potential terrorist plots. The last time I testified before 
this Committee was 8 years ago in the aftermath of the 
attempted Christmas Day bombing. Back then I focused on the 
difficulties of finding non-obvious relationships between two 
pieces of information that existed in a veritable sea of data. 
As a government, we have made substantial progress against that 
problem, but the problem itself has grown dramatically.
    Since 2009, when Umar Farouk Abdulmutallab tried to blow up 
Northwest Flight 253 over Detroit, we have seen an explosion of 
information: encrypted social media, publicly available 
information, and captured electronic media from investigations 
and the battlefield. As the haystack has gotten bigger and the 
needles more subtle, prioritization becomes extremely 
difficult. Determining which information is relevant in 
addressing the competing legal, privacy, policy, operational, 
and technical equities remains a work in progress.
    In closing, Mr. Chairman, the terrorist threat poses 
something of a paradox. The near-term potential for large-
scale, externally directed attacks against the homeland has 
declined as a result of United States. and allied actions 
around the globe. But the threat itself continues to 
metastasize and will require very close attention in the years 
ahead.
    In a crowded national security environment, it is 
completely understandable that terrorism may no longer be 
viewed as the number one threat to the country. Nevertheless, 
we will need to guard against complacency.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Mr. Travers.
    Out of respect for my colleagues' time, I am going to defer 
my questions to the end. I think we are going to set the clock 
for 7 minutes, aren't we? OK. Thank you. But, again, for 
everybody, be respectful. I am going to be guarding that clock, 
and I would ask the witnesses as well, if a Senator does what 
Senators often do, ask a question right at the 7-minute mark, 
we will take that as a question for the record because we need 
to stay within the 7 minutes so everybody can get their 
questions in. But I will defer to Senator McCaskill.
    Senator McCaskill. I will just ask one question right now 
and then defer to my colleagues.
    I am really concerned about the fact that we have had a 
fairly significant increase in not detaining people that are 
not in this country legally but are on the suspected terrorist 
list. In 2016, there were less than 150 detained that were on 
the suspected terrorist list, and less than 150 were non-
detained.
    In 2017, we detained 300 people in this country that were 
on the suspected terrorist list that were in this country 
illegally, but the non-detained jumped to over 2,000. And then 
as of September, that number of non-detained is over 2,500.
    Somebody has to explain to me how we have room, how we are 
advocating for indefinite detention of families and how we have 
room for pregnant women and thousands and thousands of 
children, but we are failing to detain those people in this 
country illegally that we have identified as suspected 
terrorists?
    Secretary Nielsen. I think I will try to lay it out at the 
front end. So there are different types of detention, as you 
know. So the Department of Health and Human Services (HHS) has 
the detention for unaccompanied children. That is explicitly 
used for that population. We cannot mix others in that 
population.
    We have family residential centers that U.S. Immigration 
and Customs Enforcement (ICE) administers. We cannot put single 
adults in those facilities. In fact, in those facilities we 
have to be very careful not to mix and match families, not mix 
and match sexes, so there are very strict rules as to how we 
can house them.
    In the single adult detention, we can also not use or not 
allow either of the other populations to be present there.
    So at the end of the day, what it comes to is just 
resources. There are different buckets of detention space. I 
believe the detention space you are talking about is the 
detention space reserved for single adults. We use every last 
bed that we have, but, yes, we need more detention space.
    Senator McCaskill. Well, I have just got to tell you, our 
country has watched, had a front row seat, where we have 
detained a lot of people, children even that are not a threat 
to our country. I do not think most people in my State would 
understand why prioritizing suspected terrorists has not 
happened. To me, the most important job we have is to be 
deporting criminals that are violating our laws and hurting 
people, making sure we arrest the criminals that are in this 
country illegally, that are violating the law, and detaining 
people who are suspected terrorists. I would like, Secretary 
Nielsen, for you to report back to this Committee how you 
intend on getting all these suspected terrorists detained as 
quickly as possible.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. This is a hearing 
where there are so many topics to raise, and we do not have 
enough time to do it all. But let me just focus on a few 
quickly.
    One is the drug crisis, and it was referenced earlier. We 
have an opioid epidemic, as everybody knows. What people do not 
know is the role that fentanyl has played: a 4,000-percent 
increase in fentanyl overdose deaths in my home State in the 
last 5 years alone; now the number one killer in America in 
Ohio; fentanyl 50 times more powerful than heroin; relatively 
inexpensive; it can be made synthetically, therefore, sort of a 
boundless supply. Most of it is coming from China. Most of it 
is coming through the mail system, I am told by your experts, 
Secretary Nielsen, and also from the Drug Enforcement 
Administration (DEA) and other law enforcement folks.
    The question is: What are we going to do about it? The 
Synthetics Trafficking and Overdose Prevention Act of 2017 
(STOP Act) has now passed the House and Senate. We expect the 
President to sign it next week. It helps in telling the post 
office you have to finally actually screen these packages. I 
guess I am looking for a couple of things. One is a commitment 
by you, Madam Secretary, and I know you have been with us on 
this issue for the last few years as we have tried to get this 
through. Despite resistance from the post office, you have been 
saying that your Customs and Border Protection people need 
these tools to be able to identify packages, the needle in the 
haystack that Director Travers talked about.
    Will you commit today to rapidly implement that 
legislation, working with the post office, to be sure we do not 
continue to have people who are dying from this disease who do 
not have to die because we are just allowing this flow of 
fentanyl to come into our country through our own Postal 
Service?
    Secretary Nielsen. Absolutely, and I want to thank you for 
your leadership. It is greatly appreciated. You have worked 
with us very closely to get that STOP Act done. So between that 
and the International Narcotics Trafficking Emergency Response 
by Detecting Incoming Contraband with Technology (INTERDICT) 
Act, which this Committee was also very helpful in getting 
across the goal line, yes, absolutely, we will work with the 
post office immediately.
    Senator Portman. What more do you need to be able to stop 
the fentanyl from flowing into our--this poison coming into our 
neighborhoods?
    Secretary Nielsen. So what we are working on now actually, 
and somewhat with my partners to the left, what we are trying 
to do is target the networks and the smuggling areas abroad, so 
before it ever comes here through the mail. We are working with 
foreign countries. We are working with Interpol, Europol. We 
have a lot of bilateral agreements. Whenever I meet with our 
allies, I talk to them about this.
    But the idea is to have a regional approach and to 
dismantle the smuggling networks from the top down. We are 
working on that now.
    Senator Portman. My sense is that cocaine production is 
increasing fairly dramatically in Colombia right now, of 
course, coming into Venezuela, where must of that country I 
think is now in the hands of narco-traffickers, essentially, 
coming up through Mexico. Crystal meth, of course, coming from 
Mexico continues to increase, increased numbers in the last few 
years. So it is not just opioids.
    But I will say with regard to fentanyl, you tell me, it is 
primarily China. Isn't that correct?
    Secretary Nielsen. Yes, that is----
    Senator Portman. You talk about going to the source of the 
problem. Why is it that there are literally thousands, I am 
told, of chemical companies in China producing this stuff that 
is killing American citizens--and, by the way, leaking into the 
Chinese communities as well, I am sure--and why have we not 
been able to do more about that?
    Secretary Nielsen. So we have a dialogue with the Chinese, 
the judicial dialogue. DOJ leads that along with the State 
Department. But that is top of the agenda, is to work with them 
and get much more aggressive commitments than we have ever had 
before. But, yes, it is coming from China. We need to do more. 
As you know, all of our K-9s have now been imprinted with 
fentanyl, so we work at the express consignment locations and 
the international mail facilities. So we will continue to do 
our part, but then we will expand it to work with our other 
partners.
    Senator Portman. Well, thank you. I am joined by Senator 
Carper--Senator Johnson, Senator Carper, Senator McCaskill, and 
I have spent a lot of time on this issue, and we want to be 
sure that our legislative initiatives are being implemented 
rapidly before more people die.
    On the issue of cyber attacks, you talked a little about 
these malign actors who are causing over $100 billion of damage 
to our economy already. You talked about your resiliency 
strategy. Recently, Senator Hassan and I introduced legislation 
that this Committee has reported out on these cyber response 
teams, trying to both authorize what you are already doing and 
expand those. We think this would also go a long way toward 
cementing your Department as the lead on dealing with cyber 
attacks on the public sector.
    I guess my question to you is: You talked about resiliency. 
What more can we do to avoid the cyber attacks on the public 
sector?
    Secretary Nielsen. Well, first, I do want to thank you for 
that bit of legislation. I know our teams are working on the 
technical assistance, but we thank you for that.
    The Hunt and the Incident Response Teams that DHS has to 
deploy are a very important part of the puzzle. As you know, we 
work on the full spectrum from awareness through to prevention 
and protection through to mitigation response. But, yes, so we 
thank you for that.
    In terms of what more is needed, we do not need any 
additional authorities at this time. What we have announced is 
the creation of the National Risk Management Center, and 
through that, by bringing in the public sector and private 
sector, excuse me, with our public partners, what we hope to do 
is identify those essential functions and systemic risk that 
would result in cascading consequences should they be attacked. 
So we are moving away from an asset-based approach to essential 
functions. We want to keep the lights on. We want to keep 
communications going. We want to keep the provision of health 
care available.
    So through that look at systemic risk, we will increase our 
partnerships and be able to really focus on what is most 
important.
    Senator Portman. Well, obviously, as all three of you said, 
this is a crisis, and it is getting worse, not better, and 
there are State actors involved as well as individual hackers. 
The State actors, by the way, tend to line up exactly with our 
adversaries, don't they, Director Wray?
    Mr. Wray. Absolutely, and we have had a number of 
significant cyber investigations that have resulted in charges 
involving China, involving Russia, involving Iran, involving 
North Korea even. I think it was just a few weeks ago, indicted 
a guy who was part of a North Korean front company that on 
behalf of the North Korean Government was responsible for the 
WannaCry ransomware attack, the Sony Pictures intrusion, and 
the Bank of Bangladesh, tens of millions of dollars heist. So 
all four of our adversaries are active in this space.
    Senator Portman. So this is sort of the new hybrid warfare, 
and obviously there is a lot more we can do.
    Let me just ask you a question to all three of you, but 
primarily perhaps to you, Secretary Nielsen. We have an issue 
right now with privacy concerns online, so a lot of social 
media companies have a lot of information from the people we 
all represent. I think unwittingly a lot of people give up 
their private information to these social media companies. So 
we talk about the concern in the financial sector. We talk 
about the concern in the energy sector, the health care sector 
from cyber attacks. We do not often talk about the fact that 
there is so much private information out there that is on the 
Web, is available to telemarketing companies, certainly, and I 
am hearing more and more from my constituents about it.
    Are you concerned about that as well? And what kind of 
protections do these companies have? These treasure troves of 
private information are out there. Are they properly protected?
    Chairman Johnson. Let me start enforcing 7 minutes now. If 
you have a quick response, that is great. Otherwise, take it 
for the record.
    Secretary Nielsen. OK. It is probably somewhere between us, 
but really quickly, just to add to what you are describing, we 
are also very worried about the availability and integrity of 
information. So all of that private information online, if 
there is a cyber intrusion, it can be altered or it can be 
frozen through ransomware. So we are looking at all three of 
the attacks on private information. Yes, that is a threat.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And thank you to 
our three witnesses for being here today.
    Secretary Nielsen, I have heard from communities in 
Michigan that current grant opportunities are simply not enough 
to support operations for local law enforcement units who are 
responsible for policing roughly 700 miles of international 
waterway borders. This is especially true for Michigan's 
smaller counties that are home to large segments of that 
border.
    Objective 2.1 of the DHS Northern Border Strategy discusses 
the Department's responsibility for international waterways and 
developing a coordinated vision with local partners. So, just 
quickly, I would like to certainly have your commitment and 
hopefully work with your office to make sure we are directing 
resources to these communities and their law enforcement 
agencies in the Northern Border Strategy Implementation Plan. 
Do I have your commitment to that?
    Secretary Nielsen. Absolutely, yes.
    Senator Peters. Thank you.
    Secretary Nielsen, how the Federal Government spends money 
is obviously a reflection of our values, and that is certainly 
true for DHS. Your spending is a reflection of your priorities 
and your values, and under your authority, DHS notified 
Congress that DHS transferred tens of millions of dollars from 
a variety of DHS components, including the U.S. Coast Guard 
(USCG), Transportation Security Administration (TSA), FEMA, and 
ICE to fund detention and removal of migrants, including 
children. Is that correct?
    Secretary Nielsen. These were year-end monies that we are 
not going to be able to spend. As you know, at the end of the 
year, end of the fiscal year, toward the end of the fiscal 
year, each department goes back through all of our allocated 
funds to determine if there are any that will not be used. We 
put that into a pot. Part of that pot went to any of the 
emerging threats such as the one Senator McCaskill mentioned, 
which is we do not have enough detention space for those that 
we need to hold who are single adults, and we----
    Senator Peters. So you did transfer funds. The answer is 
yes, it was at the end of the year.
    Secretary Nielsen. Yes, and we notified Congress. Yes, sir.
    Senator Peters. So if Congress does not meet your demands 
in terms of funding for detention centers or border wall 
construction, do you intend to continue this practice of 
transferring funds from other critical DHS components to 
detention centers?
    Secretary Nielsen. What we will do each year is be a good 
steward of the American taxpayer money. If there are monies 
that are going to go unused, we will put it in a pot, and then 
we will divide it out amongst our highest risk programs that 
need additional funds.
    Senator Peters. A few weeks ago, I asked the Executive 
Associate Director of Immigration and Customs Enforcement and 
the Acting Deputy Commissioner of Customs and Border Protection 
how long is too long to detain a child and whether DHS has 
reviewed the extensive literature discussing the long-term 
consequences and trauma with detention on children. 
Unfortunately, neither one could give me an answer during that 
hearing, so I am going to ask you. How long is too long to 
detain a child?
    Secretary Nielsen. We do not at the Department of Homeland 
Security detain children. As you know, children are in the care 
of HHS. But, in general, the answer is as short amount of time 
as possible. HHS works very hard to place those children with 
sponsors or family members.
    Senator Peters. So what is short, how short a time as 
possible? What do you consider--and I guess I ask that in 
relation to the extensive literature on this subject and 
discussing what impact it has on children. Have you reviewed 
that literature?
    Secretary Nielsen. I am familiar with it. As you know, 
under Flores and Trafficking Victims Protection Reauthorization 
Act (TVPRA), there are particular requirements that HHS must 
comply with before they can place a child. They do that as 
quickly as possible. Sometimes it does take a bit of time to 
find a family member within the United States, which is the 
first category. But I am sure they could provide additional 
information----
    Senator Peters. Are you concerned about detention of 
children?
    Secretary Nielsen. I am concerned that we need to take the 
best care of them that we can and to place them with a family 
member or sponsor as soon as possible.
    Senator Peters. Secretary Nielsen, at the United Nations 
(UN) a few days ago, the President claimed, and I will quote, 
``China has been attempting to interfere with our upcoming 2018 
election.'' A few days after, however, at the Washington Post 
Cybersecurity Summit, you said, and I will quote you here, that 
``there is no indication that a foreign adversary intends to 
disrupt our election infrastructure.''
    The President has likened China's behavior to that of 
Russia, a country that certainly mounted a very successful 
disinformation campaign against us and cyber attacks in 2016.
    So my question to you is: Is it possible that there is a 
threat to the institution or infrastructure of U.S. elections 
that you do not know about but the President feels is 
appropriate to speak about in front of an international body 
like the UN?
    Secretary Nielsen. So there are two threats that we see 
from nation-states, at least two, with respect to our 
elections. One is the hacking or attempted disruption of the 
election infrastructure. As you know, that is an area that DHS 
has lead in supporting our State and local election officials. 
And the other is the much more widespread foreign influence or 
foreign interference campaigns. China absolutely is on an 
unprecedented or is exerting unprecedented effort to influence 
American opinion, and Director Wray might be able to speak more 
to that because FBI has lead on the influence. But what I was 
making very clear during that panel that you mentioned is that 
we have not seen to date any Chinese attempts to compromise 
election infrastructure.
    Senator Peters. Secretary Nielsen, you should be in receipt 
of a letter dated October 2 sent to DHS and the U.S. Election 
Assistance Commission from 30 academics, security experts, and 
election integrity activists expressing grave concerns about 
the use of cellular modems to transmit unofficial election 
results. Michigan is one of the States, along with Wisconsin, 
Florida, and Illinois, that uses this technology. And according 
to a recent Detroit Free Press article, Michigan utilize 
encryption and other security features to prevent hacking, but 
the article highlights potential weak links in our critical 
election infrastructure.
    So my question to you: Has DHS made specific security 
recommendations to the States that utilize modems to transmit 
election data?
    Secretary Nielsen. We have provided general training and 
information with respect to not plugging into the Internet, 
which is another way of saying not to transmit constantly 
through electronic means, and we will continue to work with 
them. As you know, each election is done differently in terms 
of security depending on the operational environment which it 
is in.
    Senator Peters. Well, that leads to my last question here. 
Has the DHS taken proactive steps to reach out to States when 
vulnerabilities come to light? Or is the Department taking more 
of a reactive stance when States report problems or opt for 
specific assistance?
    Secretary Nielsen. So if we have any threat information 
from the intel community or from other States who have seen 
nefarious activity on their networks, we do proactively reach 
out. We also through our network of Albert sensors through the 
Multi-State Information Sharing and Analysis Center real-time 
monitor network traffic. And by the election, about 90 percent 
of those voting will vote in areas that are covered by those 
sensors. So we do proactively provide for indicators and, sure, 
vulnerabilities if we see them, although the most common 
vulnerabilities are change of passwords, how to support a 
system, and patch your system.
    Senator Peters. Thank you.
    Chairman Johnson. Again, I will remind everybody to be 
watching that 7-minute clock. Senator Kyl.

                OPENING STATEMENT OF SENATOR KYL

    Senator Kyl. Thank you, Mr. Chairman. Thank you to each of 
the witnesses. As Senator Portman said, the responsibilities 
between the three of you are enormous, and they relate 
everything to our country's national security right down to 
each local community's problems in dealing with these threats.
    Let me turn to a very real and very specific problem in a 
small community in Arizona. Primarily, Secretary Nielsen, my 
question will be for you. Yuma is a small town on the border 
between California, Arizona, and Mexico. It is primarily a 
farming community. There are a lot of people who are citizens 
of Mexico who come into the United States daily to work in the 
United States in and around Yuma. But it is also a place where 
there is significant illegal border crossing, everything from 
illegal contraband and drugs to smuggling of people.
    Because of two phenomena, one of which is the family 
apprehensions rate, and the chart that the Chairman has showed 
in our previous hearing and this hearing demonstrates the 
enormous increase in family apprehensions in the recent months, 
and the Flores decision, which places a limit on the amount of 
time that you have to evaluate the illegal entries and 
determine what to do with the people who have been detained--
the combination of those two things has put enormous strain on 
your agencies and on communities as well.
    Just last Sunday, on October 7, ICE began to curtail 
reviews of these family units in Arizona in the Yuma Sector 
because the numbers are simply overwhelming its capacity to do 
those reviews and deal with the local community agencies that 
have been assisting to provide transportation and housing and 
education and medical care and food and the like.
    Yuma Mayor Douglas Nicholls has called us and said, ``Could 
you please inquire as to what we can expect in the future, what 
we can do to help, but what they can do to help us?'' The 
community reaches out and does a lot of this itself, but if 
these reviews are not being done because the numbers are too 
overwhelming, then the fact is that people in Yuma are going to 
be threatened to some extent by an enormous number of illegal 
entrants into the country, and some of whom may not be making 
asylum claims. Some of these people may be dangerous, 
notwithstanding the fact that they have children with them.
    So one of my questions is: Do you know how many of the 
people who are detained in this particular sector or any sector 
have made their asylum claims or how many are simply here 
illegally without any colorable claim to be here?
    Secretary Nielsen. Sir, I do not have that figure in front 
of me for Yuma, but we are happy to get right back to you.
    Senator Kyl. Well, how would you prioritize the cases here? 
If ICE simply cannot within the timeframes required by Flores 
engage in the review that is necessary here and is simply 
releasing all of these people into this small community, what 
can we tell the community?
    Secretary Nielsen. So two things. As you described, we have 
two limitations currently with respect to family units. One is 
the amount of detention space in the family residential 
centers, and the second is the Flores Settlement Agreement, 
which limits our ability to hold past 20 days. When you put the 
two together with the increase in family units--we saw another 
30-percent increase between July and August--the numbers are 
vast.
    When we have families in the family residential center, we 
are able to spend quite a bit of time with them to determine 
where they would like to go, where their family, if they have 
some, is in the United States. As you know, we arrange for 
travel, etc. When we are not able because we do not have space 
or because we cannot keep them in a facility long enough to 
have that conversation, what we do and what you have seen in 
Yuma is we reach out to the non-governmental organizations 
(NGO) community and try to work with them to receive them as 
they come out of our care.
    Senator Kyl. Right, and the NGO community is now 
overburdened as well. So given the large numbers, hundreds and 
hundreds, and the short timeframes, what can we expect your 
agency to do or to recommend that other parts of the government 
can assist with in order to solve this problem? Because right 
now, as of last Sunday, they are flooding into the community 
with literally no ability to do anything about it?
    Secretary Nielsen. My Department will continue to ask 
Congress to pass legislation to clarify that families can be 
detained until they are removed. If they have an asylum claim, 
they can be detained until we can adjudicate that asylum claim. 
But, sir, that is the solve. We need the ability to keep 
families together.
    Senator Kyl. Would you please put somebody on this and get 
back to me as soon as possible so that I can get back to the 
mayor----
    Secretary Nielsen. Yes, sir.
    Senator Kyl [continuing]. To let him know and to let the 
citizens of Yuma know that the government here is trying its 
very best to work to solve this problem.
    Director Wray, I have a specific question for you, and it 
really goes to an assessment. And, Mr. Travers, I think 
probably you related to this as well. There is a lot in the 
news about the threat from Russia, especially with regard to 
cyber attacks and specifically with regard to our election 
process. But because of what you have said about China, is it 
possible to say that China does not represent at least an equal 
threat in several different venues here, not only in the cyber 
area but also the disruption and the disinformation campaigns 
that have been discussed earlier as well as the theft of data 
and the like?
    Mr. Wray. Well, Senator, I am reluctant to try to rank 
threats, but I would tell you that I think China in many ways 
represents the broadest, most complicated, most long-term 
counterintelligence threat we face. Russia is in many ways 
fighting to stay relevant after the fall of the Soviet Union. 
They are fighting today's fight. China is fighting tomorrow's 
fight and the day after tomorrow and the day after that. And it 
affects every sector of our economy, every State in the 
country, and just about every aspect of what we hold dear. So 
certainly is a very significant counterintelligence threat.
    Senator Kyl. Well said, and I appreciate your answer.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
McCaskill. And thank you to our witnesses for being here today, 
not only for being here but for your service, and I hope--I 
will just add my comments to the Chair and Ranking Member. 
Please thank all the men and women who you lead as well for 
their service.
    Director Travers, I wanted to start with a question to you. 
The Administration has talked quite a lot about decimating ISIS 
and destroying its safe haven in Syria and Iraq. With that 
said, I am concerned that ISIS and its so-called caliphate are 
not as devastated as we might think they are.
    In August, the Department of Defense (DOD) reported that 
ISIS currently has more than 30,000 fighters across Syria and 
Iraq, a number that was reinforced by the UN's ISIS monitoring 
body. And just last week, the Institute for the Study of War, a 
nonpartisan think tank, released a new study entitled ``ISIS' 
Second Resurgence'' that argued that ISIS is reconstituting its 
forces in Syria and Iraq and is using those 30,000-plus 
fighters to raise funds and reassert control over key swaths of 
land. These reports are obviously very concerning, especially 
since at this time 2 years ago, ISIS' ranks were being eroded 
on a daily basis. The terror group was being evicted from 
Mosul, and allied forces were beginning to encircle ISIS' last 
stronghold in Raqqa.
    If we have failed to finish the job of crushing ISIS, as 
these reports suggest, then a reconstituted ISIS safe haven in 
Iraq and Syria will threaten not only the region but the U.S. 
homeland by giving the group's area from which they can plot 
and direct attacks against Americans.
    So, Director Travers, how do you square the reports I have 
just mentioned with your testimony that really says that the 
Administration--we are in the final stages of defeating ISIS? 
Does ISIS currently have 30,000 or more fighters in Iraq and 
Syria?
    Mr. Travers. These numeric estimates are low confidence, to 
be sure. There is no question that ISIS has taken huge hits; 
95-plus percent of the territory they once held they no longer 
hold. There are some small pockets in the Euphrates Valley. 
There are some fighters in Idlib, to be sure. The key is to 
keep pressure on them, without a doubt. The key is to be 
thinking longer term in terms of Sunni disenfranchisement, 
because we could be replaying the same problem that we had from 
several years ago. We saw them several years ago begin to be 
thinking about how to implement an insurgency strategy, and 
they are burrowing down, and we certainly see this throughout 
Iraq and Syria. If we do not keep pressure on them and if we do 
not address the problems of disenfranchisement, we should 
expect to see problems in the future.
    Senator Hassan. Thank you for that, and I would look 
forward to working with you and your team, because I just think 
we have to keep the pressure on, and we cannot act as if the 
problem has gone away, because it has not.
    Director Wray, one truly emerging threat that I do not 
believe we are effectively grappling with is the threat of 
deepfakes or the use of video editing practices enhanced by 
artificial intelligence (AI) to create convincing video 
impersonations of public figures and government officials. 
While impersonations and video editing have existed for years, 
these practices have never achieved truly convincing 
impersonations. Now that appears to have changed as these 
technologies have both become more precise and much more 
accessible. The result is that the old adage of ``The camera 
never lies'' may no longer be true.
    The use of deepfakes for national security purposes would 
be a nightmare. Imagine deepfakes being used to make it look 
like a Secretary of Defense would no longer back an ally or 
would threaten imminent action against a rival. This false 
rhetoric could trigger mass protests or instability in regions, 
force impulsive reactions from countries who fall for the ruse, 
and cause massive shifts in stock markets across the world.
    So, Director, can you please share with us how the FBI is 
seeking to adapt to the emergency of low-cost deepfakes and 
what steps you are taking to prevent deepfakes from being used 
to undermine U.S. national security?
    Mr. Wray. Senator, I think you are exactly right that it is 
a topic of great concern. We have a number of our science and 
technology (S&T) folks burrowing in on this issue. There is 
probably more that could be discussed in a different setting 
than, say, this one.
    Senator Hassan. Right.
    Mr. Wray. But I do think it illustrates a broader problem, 
which is every time we have some great new technology, I have 
two reactions. One is: ``Wow, that is awesome. I cannot believe 
we can do that.''
    Senator Hassan. Right.
    Mr. Wray. And then, ``Oh, my God, I cannot believe they can 
do that.''
    Senator Hassan. Right.
    Mr. Wray. And this is a great example of that.
    Senator Hassan. Thank you. I will follow up in writing with 
you, just want to make sure that you all have the authorities 
and the tools that the FBI needs to better address and prevent 
deepfakes. So we will follow up with you on that.
    Another question for you, Director Wray, which I hope will 
be a quick one. Last May during an interview, President Trump 
stated that the FBI's senior leadership was composed of 
``several rotten apples.'' Can you please just answer me yes or 
no? Do you agree with the President that there are rotten 
apples within the Bureau's senior leadership?
    Mr. Wray. Well, Senator, I can only tell you about the FBI 
I see, which is people of great courage, integrity, and 
professionalism, and I have now met with the offices 
representing every State of the Senators up on this dais, and 
they are extraordinary people that this Committee and all 
Americans should be proud of.
    Senator Hassan. Thank you very much, and I would agree with 
that. My honor of getting to know some of the FBI folks in New 
Hampshire has been a true honor.
    Secretary Nielsen, I wanted to touch on one last issue with 
you to follow up on your testimony before the Homeland Security 
and Governmental Affairs Committee (HSGAC) last May. At that 
hearing I asked you about the capacity for the United States to 
conduct inspections of traffic leaving the United States and 
heading southbound into Mexico. As you know, as part of the 
Merida Initiative, the United States has pledged to increase 
southbound inspections in order to stem the flow of guns and 
money from the United States into Mexico that help fuel 
violence and empower the Mexican drug cartels. I will note that 
it is my understanding that we are seeing fentanyl not only 
come into the country through our mail, but come in through 
Mexican cartels, and that there is some evidence that cartels 
are beginning to manufacture fentanyl as well.
    However, when I visited both the Southern Border and Mexico 
last spring, I was surprised to see little southbound 
inspection at the land ports of entry, and my Mexican 
interlocutors consistently raised this with me during my 
meetings in Mexico City. At the May hearing, you pledged to 
investigate the current capability of the United States to 
conduct robust southbound inspections and to work with this 
Committee to address gaps in these inspections.
    Realizing I am out of time, I will ask that we follow up on 
the record on this, but I will ask that you update us on your 
assessment of our southbound inspections.
    Secretary Nielsen. And if I could just really quickly say, 
yes, ma'am, we have done that. I have had no less than a dozen 
conversations with Mexican counterparts, current and in the 
future Lopez Obrador administration. I am happy to come brief 
you. We have a lot of good news there on how we are increasing 
capacity.
    Senator Hassan. Great. Thank you.
    Thank you, Mr. Chair.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman, and thank you all 
for being here today and for your service.
    Director Wray, let me also echo the comments about you and 
the FBI. As we discussed, before I got into this chair, I was a 
former U.S. Attorney and was happy to sign a letter 
recommending you for this position, and I commend you for the 
job you are doing, and I hope you will pass along to everyone 
in the FBI--I have butted heads a lot of times with the FBI, 
both as prosecutor and defense lawyer, but I have incredible 
respect for that institution and the people there. So please 
pass that along.
    I would like to talk just a moment about the homegrown 
threat that you have talked about. We tend to in this day and 
age think of the terrorist threats in terms of al-Qaeda and 
ISIS. I have maintained for many years that this is not a new 
threat. It was, in my opinion, an act of homegrown terrorism 
when a bomb exploded in 1963 at an African American church, 
killing four girls. It was an act of homegrown terrorism when 
the Murrah Building exploded, when the Olympic Park bombing 
occurred, and I believe certainly that there were homegrown 
terrorist-type threats homegrown when people marched through 
the streets of Charlottesville saying, ``Jews will not replace 
us.'' Charleston, nine people killed. Again, if you look on the 
Internet, Dylann Roof had all manner of things.
    So my question is--and I know some of this answer, but I 
would like for you to just publicly talk about those threats, 
what the FBI is doing, because I know you are taking them 
seriously. I do not want those kind of threats to get 
overlooked because there are threats on mosques, there are 
threats on Jewish community centers, bomb threats.
    Would you address just a little bit what the FBI is doing 
and how you are addressing the threats that come from what I 
call the ``far right,'' the Klan, neo-Nazis, those folks who do 
a lot of damage in this country as well.
    Mr. Wray. Thank you, Senator. Certainly the category that 
you are describing, we usually bucket it as what we would call 
``domestic terrorism,'' and we have also--it is an easy number 
for me to remember--about 1,000 active investigations into 
domestic terrorism. Now, those cover the waterfront of the full 
range of extremist ideologies, from right to left and 
everything in between. But we have assessed that that is a 
steady, very serious threat, and I think we have had 100-some-
odd arrests just of domestic terrorism subjects over the last 
year or so. It is something we take very seriously, and every 
Joint Terrorism Task Force (JTTF), a structure that you would 
be well familiar with from your past, is very active in the 
domestic terrorism space as well, and it is something we take 
very seriously.
    Senator Jones. Are you looking as well at the Internet? 
What I saw back 15 years ago when I was U.S. Attorney was at 
that point the rise of the Internet caused the Klan and others 
to seek these lone wolves, not the organized. Are we still 
monitoring that on the Internet just like we do al-Qaeda and 
ISIS? Is that also being monitored?
    Mr. Wray. Well, just to be clear, we do not just monitor 
the Internet. For a variety of reasons, under Attorney General 
guidelines and domestic investigation operating guidelines, we 
have to be careful for First Amendment reasons and so forth. 
But certainly when we have properly predicated investigations 
that go into Internet activity and social media, we are active 
in that space.
    I would say that, in general, the domestic terrorism threat 
which we were just discussing, as opposed to the homegrown 
violent extremists, which we would categorize as the ISIS-
inspired or global jihadist-inspired, seems to be less online 
recruitment and online inspiration than the HVEs. Their 
inspiration on the domestic terrorism front seems to come 
through other means slightly more often.
    Senator Jones. All right. Thank you.
    Secretary Nielsen, I want to follow up just a little bit on 
Senator Portman's questioning about fentanyl, because I 
appreciate the efforts that are happening. It is a huge problem 
across this country. I appreciate your efforts of trying, as 
you said, I think, talking to China and others. I am 
particularly worried about China. Recently Senator Toomey and I 
introduced a bill--he was the real lead on this--S. 3463, the 
Blocking Deadly Fentanyl Imports Act. You are working with 
China. You are working with others. But I think most people 
would tend to believe that these manufacturing plants in China 
would not exist without some type of either State-sponsor or 
recognition. They know about them; they have to know about them 
in China. This bill really will talk more about trying to use 
sanctions if a country does not deal adequately with this 
issue.
    Are you familiar with that bill? And if you cannot get the 
kind of help that you want out of countries like China, is the 
United States willing to use some type of sanctions to put the 
pressure on China to close these mills down?
    Secretary Nielsen. Sir, I am not, but I am very happy to 
come talk to you about this. We need a bigger stick. We need to 
make it very clear that we will not tolerate this. I do not 
disagree. I do not have any evidence to provide to you that it 
is State-sponsored, but I think given the Director's broad 
description of Chinese activities in almost everything that 
happens in their commercial sector, I would agree that that is 
a very strong possibility. I would be happy to work with you 
and provide technical assistance back and forth.
    Senator Jones. All right. Great. Well, we will get you a 
copy of that bill that has been introduced, and I would like to 
follow up on that.
    And, Mr. Chairman, I have a few seconds left, but I will 
just submit my questions for the record.
    Thank you all for being here today.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you 
all for the wonderful work you do and the great people you 
lead, many of whom I visit on a regular basis in my State. I 
think we stand united in supporting the men and women of law 
enforcement who are doing an excellent job.
    Sometimes we have some gaps, Director Wray. As you know, I 
am deeply concerned about the lack of adequate policing in 
Indian reservations in my State. We talk about threats against 
the homeland. We know that there have been cartels operating, 
especially during the Bakken boom in North Dakota. This is a 
place where you have primary jurisdiction. We have talked about 
this a lot. People in Indian communities across my State 
continue to express great concerns about their public safety.
    I have met with your agents in Minot. Some of these guys 
are working literally 20 hours a day--24/7. I am not 
exaggerating. You are going to burn them out, and you have to 
get them more help. Please, please, please, please, please. 
This is so important, because what happens on our reservations 
in North Dakota does not stay on our reservations in North 
Dakota. And so we will continue that conversation, but I wanted 
to lay down that marker because when we talk about security 
threats, I think sometimes we ignore the unique challenges that 
reservations have.
    Secretary Nielsen, I want to talk a little bit about the 
Northern Triangle countries. You and I have had a lot of 
discussions about different kinds of strategies that we can 
deploy, and I know I keep hearing about the best way to protect 
the homeland is to prevent these migrants and asylum seekers 
from making the journey north. There are some people who think 
you do that by--in strategies that do not address the root 
causes of why people migrate.
    I have had conversations with several people that have been 
involved in or invited to the Conference on Prosperity and 
Security who are really concerned about whether DHS is, in 
fact, engaging with the nonprofits and advisory groups in the 
region. I think you cannot do this alone. There is no way we 
can do this alone. I would just implore you to maybe tell us a 
little bit about what you are doing there, but to do better 
outreach with some people who are potential partners who could 
be tremendously helpful.
    When we look at the population of the Northern Triangle 
countries, that population is, in many of these countries not 
as large as California. So there is a real opportunity, I 
think, to have an impact. So if you could just talk about your 
engagement with the Northern Triangle countries and how we can 
better connect you with partners.
    Secretary Nielsen. Well, Senator, I thank you and others on 
the Committee for your continuing dialogue with me on this.
    We have to address both the push and the pull. We have to. 
So the push factors, we have spent a lot of time analyzing what 
those are, working with the United Nations in particular to 
understand. I called for a Minister in Guatemala--I have been 
there now a couple of times--to talk with all of my 
counterparts in the countries and the social fabric, the NGO's 
there, about how we can take care of vulnerable populations as 
quickly as possible. It should not be that if you need to seek 
asylum you have to pay a smuggler or trafficker to do that. 
There has to be a better way to protect them sooner in the 
process.
    I have spent a lot of time in Mexico, a lot of time 
talking----
    Senator Heitkamp. With that, have you reviewed Senator 
Carper's and my bill?
    Secretary Nielsen. Which one?
    Senator Heitkamp. It is a bill that would allow for asylum 
seekers to apply in-country, not make the migration north? Has 
DHS taken a position on that?
    Secretary Nielsen. We have not, but I would be more than 
happy to come speak with you about that.
    Senator Heitkamp. I mean, I think when we talk about what 
is it going to be that is going to help us--and Senator Carper 
is here, and he can talk about that further. So it is always 
nice when you can find those things that we all agree on. We 
all agree that the worst thing for these families is to migrate 
north. It is a dangerous journey. Many times they are 
indentured for their lifetime, paying off the people who 
actually smuggle human beings. We have to keep those two terms 
separate.
    Secretary Nielsen. Yes.
    Senator Heitkamp. I really believe that this is the sweet 
spot, working with the NGO's, working with the communities, if, 
in fact, we are going to recognize--which is where we maybe 
have a point of conflict--that American law allows for people 
to seek asylum here. And we will have to have a structure for, 
in fact, responding to those asylum applications. And so we 
would really appreciate it if you would take a very hard, close 
look at the Northern Triangle countries and what we can do to 
seek asylum there and work with Senator Carper and with me to 
try and find some kind of legal path forward for doing that.
    I want to switch just to the Northern Border. I would 
disappoint, I think, everybody on this panel if I did not talk 
about the Northern Border. We continue to have staffing 
problems. We continue to be concerned. I want to thank you for, 
first, the strategy and now the implementation. But I think 
that there has to be better ways to improve the opportunities 
for the workforce on the Northern Border.
    Could you just in the time that I have remaining speak to 
the work that you are doing and tell us what more can be done 
to encourage people to join us in Border Patrol and Customs and 
Border Protection on the Northern Border?
    Secretary Nielsen. Yes. So we are looking very carefully at 
how we recruit and how we retain and how we compensate. All 
three of those go to a variety of different areas where we have 
difficulty basically recruiting and hiring folks in those 
areas. So we are looking at rotations. We are looking at 
bonuses. We are looking at additional educational opportunities 
so they can get training along the way.
    Senator Heitkamp. Secretary Nielsen, if I can just say--
because I do not have a lot of time left, and he is wielding a 
pretty heavy gavel today--I have been hearing this for 6 years. 
I just want to see it. I want to see what that plan is, and I 
want to hear from my guys up on the border, my men and women up 
on the border that, yes, they are being heard, they are being 
listened to, and that their job rewards have increased as a 
result of the recognition from the Department.
    Secretary Nielsen. I am happy to come brief you. The good 
news is for the first time in many years we are hiring at a 
rate that outpaces the rate at which we are losing, yes, ma'am. 
But I am happy to come brief you in detail.
    Senator Heitkamp. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Director Wray, I want to thank you and the men and women of 
your agency for the work you do every day. I think I am the 
only Member of this Committee who is also a member of the 
Senate Judiciary Committee, and I would like to talk with you 
about the Kavanaugh hearing.
    I just want to be clear about how the system works. When 
the FBI was given the direction to do the background 
investigation as it related to Dr. Ford's allegations, that is 
an instruction that goes to the FBI from the White House--is 
that correct--not from the Senate?
    Mr. Wray. That is correct.
    Senator Harris. And when the FBI was directed then to do 
that investigation as it relates to those specific allegations, 
was the FBI given full discretion or was the scope of the 
investigation limited by the direction you received from the 
White House?
    Mr. Wray. Well, Senator, I want to be a little bit careful 
about what I can talk about in this setting, but----
    Senator Harris. And so I am clear, I am not asking you for 
the content of the investigation, just the process.
    Mr. Wray. Understood. There are memorandum of 
understandings (MOUs) and other things that go back a ways that 
govern this, but I think it is important--I would say this: It 
is important to understand that, unlike most investigations 
like the sort that you and I and Senator Jones have all been 
familiar with, traditional criminal investigations, national 
security investigations, a background investigation is very 
different, and that is done--our only authority is as requested 
by the adjudicating agency----
    Senator Harris. The White House in this case.
    Mr. Wray [continuing]. Which in this case is the White 
House.
    Senator Harris. I have a lot to cover, and so if we can be 
as succinct as possible, I would appreciate it. And I know 
there are a lot of details, and I appreciate your point.
    So in this situation, was your direction limited in scope, 
or were you given full direct discretion to investigate 
whatever your agency thought was appropriate to figure out what 
happened?
    Mr. Wray. I think I would say that our investigation here, 
our supplemental update to the previous background 
investigation, was limited in scope, and that that is 
consistent with the standard process for such investigations 
going back quite a long ways.
    Senator Harris. And did you receive this directive in 
writing?
    Mr. Wray. There has been lots of communication between, as 
is standard, between the FBI's Security Division and the White 
House's Office of Security----
    Senator Harris. Was it in writing?
    Mr. Wray [continuing]. and I would expect that there would 
be written communications, but I cannot speak to that here.
    Senator Harris. Can you find the direction and provide it 
to this Committee, the document----
    Mr. Wray. I would have to see what would be appropriate.
    Senator Harris. OK. And who from the White House 
communicated the directive?
    Mr. Wray. Well, as I said, the communication between the 
FBI and the White House for nominations, including judicial 
nominations, is through the FBI's Security Division, which has 
background investigation specialists, and the White House 
Office of Security. And that is where the communication always 
is, and I have spoken with our background investigation 
specialists, and they have assured me that this was handled in 
the way that is consistent with their experience and the 
standard process.
    Senator Harris. Did anyone in your agency receive any 
direction about the scope of the investigation directly from 
Don McGahn?
    Mr. Wray. Well, I cannot speak to what anybody throughout 
the organization might have received instructions on. My 
understanding is that the communications occurred between the 
White House's Office of Security and the FBI's Security 
Division.
    Senator Harris. Do you know who determined that the FBI 
would not interview Judge Kavanaugh or Dr. Ford or the list of 
40-plus witnesses?
    Mr. Wray. Again, I would say what I said at the beginning, 
which is, as is standard, the investigation was very specific 
in scope, limited in scope, and that that is the usual process, 
and that my folks have assured me that the usual process was 
followed.
    Senator Harris. And did the FBI look into allegations as to 
whether Judge Kavanaugh lied to Congress during his testimony?
    Mr. Wray. That is not something I could discuss here.
    Senator Harris. Thank you.
    Secretary Nielsen, Senator Peters during this Committee 
hearing asked how long is too long to detain a child, and you 
went on to testify that your agency does not detain children. 
However, it appears that there is some conflict then between 
your understanding and what the IG reported in September 2018, 
when in that report, which I have here--and I am sure you have 
read it--there was a finding that CBP held children separated 
from their parents for extended periods of time in facilities 
intended solely for short-term detention, despite assertions by 
you that children were being transferred to HHS within 72 
hours, as it statutorily required.
    For example, in the Rio Grande Valley (RGV) Sector, 27 
percent of children were in CBP custody for more than 5 days, 
and in the El Paso Sector, 23 percent of children were in CBP 
custody for more than 5 days. In one case in the Rio Grande 
Sector, I believe a child was held in CBP custody for 25 days.
    How do you reconcile the testimony you provided this 
Committee with the report from the IG?
    Secretary Nielsen. I think there are two separate topics. 
The one that you are describing is when we apprehend a family 
unit or what you are talking about as an unaccompanied child, 
we as soon as possible process that child, which means we give 
them an initial medical screen. We ascertain if they have 
family members as best we can in the United States, where----
    Senator Harris. But, Secretary, I just have a minute left. 
You testified that you do not detain children----
    Secretary Nielsen. We do not----
    Senator Harris [continuing]. But the IG report\1\ indicates 
that CBP, which is----
---------------------------------------------------------------------------
    \1\ The report referenced by Senator Harris appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    Secretary Nielsen. We do not have----
    Senator Harris. I am not finished. The IG report indicates 
that CBP has detained children, and not only has CBP detained 
children, they have detained them for longer than is 
statutorily allowed. How do you reconcile the IG report with 
your testimony this morning?
    Secretary Nielsen. We do not detain children. What we do is 
when we apprehend them at a Border Patrol station, we process 
them, and as soon as there is room in an HHS facility, we 
transfer them. Because of the vast----
    Senator Harris. Does the processing involve detention?
    Secretary Nielsen. It is not a detention facility.
    Senator Harris. Do they stay in CBP custody? Do they spend 
the night there?
    Secretary Nielsen. We are not able to, under the law, put 
them anywhere else, so we will care for them until bed space 
opens at a detention facility at HHS.
    Senator Harris. In other words, you do detain children.
    Secretary Nielsen. In other words, we do not have enough 
detention facility at HHS because 10,000 children were sent 
here unaccompanied, and their parents chose to do that.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Secretary Nielsen, you are a member of the 
Committee on Foreign Investment in the United States (CFIUS)?
    Secretary Nielsen. Yes, sir.
    Senator Paul. Earlier this year CFIUS intervened to block 
Broadcom from acquiring Qualcomm because of national security 
concerns. Now Broadcom is about to complete acquisitions of 
Computer Associates (CA) Technologies, whose network systems 
are deeply embedded in many of our critical infrastructure 
facilities and national security agencies. For example, 60 
percent of U.S. electric customers are serviced by companies 
using CA systems. Similarly, their systems are used in 29 U.S. 
nuclear reactors.
    Is CFIUS reviewing this transaction between Broadcom buying 
CA Technologies?
    Secretary Nielsen. Sir, in this forum I cannot speak to 
open investigations, but I am happy to come talk to you about 
it.
    Senator Paul. OK. We will send you a letter advocating that 
CFIUS look at this, and whatever can be public, that is fine. 
But we think that if they were looking at Broadcom previously, 
just because Broadcom has changed their domicile to here does 
not mean we still should not look at Broadcom.
    Director Wray, does the FBI access the Foreign Intelligence 
Surveillance database for information on domestic crime?
    Mr. Wray. The Foreign Intelligence Surveillance Act (FISA) 
database? We have a variety of databases. We do not investigate 
domestic crime through our FISA authorities.
    Senator Paul. That would seem to contradict things that we 
have heard previously. You are saying that the FBI does not 
access any of the foreign databases, either the 12333 or the 
FISA database, looking at domestic crime?
    Mr. Wray. Maybe you and I are using slightly different 
definitions of the term ``domestic crime.'' I think we use the 
foreign intelligence authorities that we have and the foreign 
intelligence databases that we have to investigate 
counterterrorism, counterintelligence, and cyber activity on 
behalf of foreign actors.
    Are there situations where some of those programmatic areas 
then result in criminal charges that are statutes that could 
also be domestic crimes? Absolutely.
    Senator Paul. But you are telling me that a guy that is 
alleged to sell drugs and talks to people in Mexico whose 
conversations might be caught up in an international database, 
you are not accessing those to go after drug charges?
    Mr. Wray. Senator, I would be happy to try to arrange a 
more detailed briefing that could get----
    Senator Paul. No, that is either a yes or a no. Either you 
do it or you do not do it. In the past, my understanding is the 
FBI has said that they do do this, that they do access--and 
that has been a big debate over what the legislation should say 
on what you should do. In the recent FISA reform, we actually 
said you can only do it--or that it requires a warrant if you 
have an open and active investigation. The point from those of 
us who believe we need more privacy control is that we are 
concerned that the FBI, thousands of agents across the country, 
could be looking at conversations about domestic crime or about 
anything, perhaps, without a warrant. And that is the debate we 
have been having for years in this country, and this is a 
public policy debate, not one over secrets.
    So your testimony is that the FBI does not access foreign 
databases to investigate in any way domestic crime?
    Mr. Wray. Senator, I would want to be more careful in my 
answer to you, so let me propose to get back to you with 
something in writing on that.
    Senator Paul. The reason this is a debate is that when we 
collect information on people overseas, we do not use the 
Constitution. We do not believe necessarily that the 
Constitution applies to you if you live in Libya. So we scoop 
up all your information; we listen to phone calls everywhere, 
including Angela Merkel, everybody. We listen to everybody's 
phone calls around the world. We tend to tolerate that, but we 
have the Constitution for those of us in the United States. So 
if you happen to catch someone talking on the phone--so, for 
example, do you think that it is possible that the President's 
conversations with international leaders are in the FISA 
database?
    Mr. Wray. I am not sure there is anything I could speak to 
in this setting----
    Senator Paul. It has been reported in the Washington Post, 
about 2 years ago there were 1,500 times in which the 
President--this is when Obama was President--was minimized, 
meaning, yes, you are gathering up so much information, you, 
the National Security Agency (NSA), the intelligence community, 
that actually the President's conversations are gathered up in 
there. So you think it is possible that Members of Congress are 
in the FISA database if we talk to international leaders?
    Mr. Wray. Well, Senator, I am quite confident that we are 
conducting ourselves in a manner consistent with the law and 
the Constitution and subject to extensive oversight. I do not 
know that I could speak to every hypothetical about whether or 
not there have been situations----
    Senator Paul. Do you think it is possible that journalists' 
conversations, if they are talking with international 
journalists overseas or if they mention that they are doing a 
story on al-Baghdadi or another terrorist name, do you think 
that there is a possibility that journalists' conversation are 
in the FISA database?
    Mr. Wray. I cannot speak to specific hypotheticals----
    Senator Paul. I think the answer is yes. And do you think 
it is a possibility that international businessmen and--women 
who are having conversations with people overseas could be 
caught up in your database as well?
    Mr. Wray. Senator, as I said, I am confident that the FBI 
is adhering to its authorities in a manner consistent with the 
law passed by the Congress----
    Senator Paul. But, see, here is the problem----
    Mr. Wray [continuing]. and the Constitution.
    Senator Paul. While the FBI, by and large is full of good 
people, yourself included, you have had some bad apples. You 
had Peter Strzok and his girlfriend talking about trying to 
bring the President down. You have had people bringing their 
politics to work. The concern of us who want more control over 
what you do and how you look at data is that, as Madison said, 
men are not angels. That is why we have the Constitution. That 
is why we ask you to get a warrant.
    The information you have gathered in the foreign database 
is not constitutional in the sense that it is gathered with no 
bar. There is no warrant, there is no constitutional manner to 
that data. And yet you are going to then use it on domestic 
crime. That has been our complaint for years and years and 
years, that you should not be able allowed to access that data 
without a warrant. Why? Because we do not want Peter Strzok and 
his girlfriend down there looking up Republican donors or 
conservative donors. We want there to be controls. And it is 
not to say that most people are bad apples. I think 99 percent 
of the people in the FBI are good people. But the 1 or 2 
percent that become Peter Strzoks or Andy McCabes or abuse 
their authority down there need to have the control of the 
Constitution. That is why we continue to argue that these FISA 
databases, any of these foreign databases, that if you are 
going to look in them, if you have an FBI agent in Omaha and he 
or she is going to look at the database, into any of these 
databases, they should call a judge and get a warrant. That way 
we do not allow bias to enter into this. This has been from the 
beginning of time, the protections we want, and I do not think 
it is being taken adequately.
    Thank you.
    Mr. Wray. Senator, I would just say that I disagree with 
the characterization of it as being unconstitutional in terms 
of the way in which we have conducted ourselves, but I 
appreciate your kind words about the men and women of the FBI. 
I would say that the recent legislation that was passed by this 
Congress was important legislation to keep Americans safe, and 
I think we can protect the American people and uphold the 
Constitution at the same time, and I think that is what we are 
doing.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, to all three of you and the 
teams that work around you. You are simply remarkable folks 
that are engaged in this, and so we appreciate the ongoing work 
that you have.
    Secretary Nielsen, let me start with you. There were some 
questions that came up on a Bloomberg article just a few days 
ago about supply chains and the accusation that China as a 
government from the article itself was working with individuals 
within manufacturing to put micro chips into motherboards that 
would then get access to all parts of communication and all 
parts of the American Government, including national defense 
resources. Talk to me about DHS and what you are doing on 
supply chain management, trying to be able to help protect us 
from foreign threats.
    Secretary Nielsen. So this is a particularly pernicious 
threat, as you well know, because it is very difficult for the 
average citizen, company, or government entity to understand 
every component that was put into a part or piece of equipment 
or network that they have purchased.
    So at DHS we have created the National Risk Management 
Center. Under that center we have an Information and 
Communications Technology Task Force on Supply Chain. We are 
working very closely with the private sector to break down the 
supply chain and give them much more awareness on the types of 
companies they are purchasing from. We provide them 
intelligence with respect to whether those companies could pose 
a threat. And certainly within DHS I have asked for a complete 
overhaul on the way in which we look at contracting to make 
sure that any vendor that works with DHS has complied with 
basic security.
    We also, as you know, have used our Binding Operational 
Directive (BOD) when needed, in the case of Kaspersky, to make 
sure that that is removed off of all Federal networks.
    Senator Lankford. So at this point, as you are working with 
entities, is there a greater threat from manufacturing? Let us 
say in this case it was from China that is deliberately trying 
to be able to gain access to information and the movement of 
information in the United States. Is there a greater threat 
from China than there has been historically? Is that a growing 
threat? How would you describe that?
    Secretary Nielsen. I would echo Director Wray's description 
of China. They are bringing everything they have to bear. They 
are playing a long game. They are trying to influence us in 
every way possible. We do see them very active in the 
cyberspace. So we take that intel from the intel community, and 
then we appropriately share it with the private sector to make 
sure that they are up to speed on the tactics, threat 
indicators, etc., that might apply.
    Senator Lankford. Thank you.
    Director Wray, how are the airports doing in working with 
you? Do you have voluntary cooperation with the airports to be 
able to check for insider threats? How are airports working 
with the FBI? Are they actively engaging with the FBI? Or do 
you see the vast majority of airports saying, ``We do not want 
to do that''? Obviously, TSA are very aggressive on trying to 
be aware of inside threats, but there are lots of other 
employees that are there. Are the majority of airports 
voluntarily cooperating with you or not?
    Mr. Wray. I would say in general, Senator, that the 
airports have been good partners with us. Obviously, we work 
very closely with the various DHS agencies in dealing with 
airport security. But I would say for the most part we have had 
pretty good cooperation from the airports.
    Senator Lankford. So for airports that have chosen not to 
cooperate with you--and there are several that have said, ``We 
have it, we will do our own,'' what would be the counsel that 
you would provide to them?
    Mr. Wray. I think this is a shared fight, a shared threat, 
and it requires a shared response.
    Senator Lankford. Thank you.
    Secretary Nielsen, let me go back to immigration. You have 
a very difficult task. It has been interesting to be able to 
hear the dialogue around this dais today. When you have 
thousands and thousands of kids that are coming at you that you 
are trying to be able to manage and care for, which foreign 
leaders have come to the United States to be able to look at 
the facilities, specifically to see how their kids are taken 
care of and have walked away impressed, saying, ``OK, our kids 
are being well cared for.'' They have an understanding from 
those governments that these individual kids or these families 
have crossed the border illegally. They have crossed thousands 
of miles. They have slept on the open ground and dirt and not 
had access to good food, not had access to shelter, have been 
moved by human smugglers. Then they come to the United States, 
and they are treated with dignity. They are put in a place. 
They are provided food. They are provided shelter. They are 
provided safety that they have not had, several of them, for 
weeks and weeks and weeks of travel. It is a very different 
experience.
    So it is interesting to me to hear the note and the 
accusation to you as you are detaining children when you are 
actually trying to be able to manage and provide care to kids 
that have not had care sometimes from their own parents, 
sometimes at all from anyone for weeks at that point. So I do 
appreciate what you are doing. You are putting a positive face 
forward for America to be able to help provide care for kids 
that are in a vulnerable moment. So I appreciate that.
    I also appreciate what you are doing working with the 
Northern Triangle and with Mexico. Can you help me understand 
where that is going? Because I know there is a lot of dialogue 
right now with the Northern Triangle. This Congress has voted 3 
years in a row to put over $600 million toward helping 
stabilize Guatemala, Honduras, and El Salvador. Three years in 
a row, $600 million each year plus to be able to fight 
corruption, provide judicial stability there, to be able to 
help fight off drug interdictions and such, to be able to help.
    You are also engaging at a different level. Help me 
understand that.
    Secretary Nielsen. I am happy to. So there are quite a few 
components that go into it, as you know. So working directly 
with the three countries in the Northern Triangle and Mexico 
and Colombia and Costa Rica and other countries in the region, 
I have asked us to work on a regional approach to counter 
smuggling. The smuggling epidemic is not a United States 
problem, it is not a Mexican problem, and it is not a Northern 
Triangle problem. We all have to work together to dismantle 
that, so that is part one.
    Part two is making sure that the countries from which they 
originate are as stable as possible, that they provide health 
care, food in some cases, but employment opportunities. The 
more and more that we have dug into this over the last year in 
conjunction with the United Nations, what we have found is the 
vast majority of those leaving the Northern Triangle leave for 
family reunification, leave for economic opportunity, and then 
in some cases in some areas leave for a lack of food security.
    So we are working with the United Nations to increase 
asylum capacity so that we can take care of those vulnerable 
populations who do choose to leave as close as possible to that 
source of origin.
    I hope to be able to report to this Committee soon some 
great strides forward with Mexico. I have been working very 
closely with the Pena Nieto administration, but also have had 
many conversations and trips to Mexico to meet with the Lopez 
Obrador incoming administration. We have our conference later 
this week where we hope to focus on both building prosperity in 
the region with the NGO community and nonprofits, and also to 
focus on that security. How can we together as a region counter 
what we have, which is our common cause, which is against the 
smugglers, against the transnational criminal organizations, 
and the gangs.
    So it is very complex, but we are pulling it all together 
to make sure we have a holistic approach.
    Senator Lankford. Great. Thank you for that.
    Chairman Johnson. Senator Carper, are you ready?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Sorry to be bouncing back and forth. There 
are a bunch of hearings, and we serve on a bunch of committees, 
and I apologize for not being here for all of this one.
    I appreciate the strong interest that Senator Lankford is 
showing in the Northern Triangle. There is a reason why we have 
tens of thousands of people coming up from Honduras, Guatemala, 
and El Salvador. As you know, Madam Secretary, they have lived 
in too many cases lives of misery, and we are complicit in that 
misery because of our addiction to narcotics.
    Senator Lankford told me a few minutes ago before he left 
for another hearing that there is some progress in Guatemala 
just in the last week in terms of going after bad guys with 
respect to drug operations, and we applaud that.
    I am actually going to have a chance to talk the President 
of Guatemala tonight at dinner. While we applaud the work that 
is going on with respect to narcotics, we are not so pleased 
with what is going on in some other regards. I do not know how 
closely--your predecessor, Jeh Johnson, stayed very close to 
what was going on in the Northern Triangle. I do not know if 
you have had a chance to do that or not, but if you had a 
chance to convey briefly a message to President Morales tonight 
with respect to progress or lack thereof in terms of working 
through the Alliance for Prosperity to actually turn the 
country around and improve things, what message would you give 
him?
    Secretary Nielsen. Sir, I would go back to awareness. We 
have to work together to protect these vulnerable populations. 
It cannot be that their only option is to pay a smuggler. So 
the more that he can do to work with us--and I do stay very 
involved. I probably spend about 30 or 40 percent of every 
working day on Mexico and the Northern Triangle to try to work 
on the push factors and help stabilize the region. But the more 
that he can help us with awareness and help us work toward 
other options, I do think that that will monumentally move us 
forward.
    Senator Carper. All right. Thank you.
    One of the other hearings I came from is the Environment 
and Public Works (EPW) hearing which focuses today on 
endangered species, of all things. But one of our witnesses 
just shared with us that her husband is heading for Mobile, had 
something to do with the storm that is bearing down, and they 
realized another threat. One of the threats to our homeland, I 
think the greatest threat perhaps to our homeland, no one has 
talked about it today, but the Government Accountability Office 
(GAO) has talked about it quite a bit in the last half dozen or 
so years, and that is the fact that our planet is getting 
warmer, and we are seeing extraordinary, extreme weather 
happening. I think the cost maybe just last year for extreme 
weather events was about $300 billion. That is up dramatically 
from 10 years ago. We measure rainstorms now, the amount of 
rain, by the foot, not by the inch. We have parts of Montana, 
Idaho, Oregon, Washington, and even California where they are 
on fire. They have been on fire earlier this year. Places 
bigger than my State. A big State, I might add. And extreme 
weather, we have had, I think, in the last 100 years 33 
Category 5 hurricanes in the whole Atlantic. In 100 years, 33, 
and last year we had three right here in the United States. 
Something is going on here. And GAO says we better get our 
heads into the game. The United Nations released a report just 
last week that said we had better get our head into this game.
    When you testified before us before, Madam Secretary, I 
think I or somebody asked you a question about do you think of 
this as a serious concern, and I think you maybe thought it was 
kind of a political question and we were trying to put you on 
the spot with your boss: Is this climate change real and is 
there something we ought to be doing about it? But I just want 
to know, when you think of threats to our country, to our 
homeland, what do you think about this threat?
    Secretary Nielsen. I think it is very serious. As you said, 
just in 2017 alone, 15 percent of the United States population 
was affected by either a hurricane or a forest fire. So the 
intensity, the changes in weather and patterns, the changes in 
which the hazards manifest, all require us to update everything 
we do.
    So first I want to thank you very quickly for the 
legislative language I know this Committee worked very hard on, 
which is to give us the ability to do premitigation grants. I 
think that will really help to prepare areas. But we have to 
increase our modeling. We are working much more closely with 
National Oceanic and Atmospheric Administration (NOAA), working 
much more closely with the Department of Interior, and the U.S. 
Department of Agriculture (USDA). We have to do more to 
anticipate and understand how these threats manifest.
    Senator Carper. All right. I want to quote Mark Twain. Mark 
Twain once said--and this goes back to some of our earlier 
conversation about truthfulness and people understanding--like 
Senator Hassan raised the issue of faking identities and, just 
deluding people and misleading people. But Mark Twain once 
said, ``It ain't what people don't know that bothers me. It's 
what they know for sure that just ain't so.''
    Thomas Jefferson said it differently. He used to say, ``If 
the people know the truth, they will not make a mistake.''
    ``If the people know the truth, they will not make a 
mistake.''
    People do not know what is true anymore. We do not know it 
here, and my wife has been over to a couple countries like 
Georgia where they have gone through all kinds of attacks from 
the Russians, and people do not know what the truth is anymore.
    Let me just ask our FBI Director, Mr. Wray, just think out 
loud about that, knowing the truth and this kind of situation 
we face as a nation today and the fact that it is hard to know 
what is true.
    Mr. Wray. Senator, we think decisions need to be based on 
facts, and I think more and more this country could stand for 
everybody to take a deep breath and calm down for a second and 
focus on the facts. And that is what we are going to do at the 
FBI.
    Senator Carper. I quote Jack Webb. He used to play Joe 
Friday, I think, on the FBI show many years ago. And he was 
famous for always saying--he was going someplace to do an 
investigation, knock on the door, and somebody would open the 
door, and he would say to whoever answered, ``Just the facts, 
ma'am. Just the facts.'' And we do not know what the facts are 
this morning.
    Mr. Travers, you have not been asked a whole lot of 
questions, but if you were to just pick one question you would 
like to be asked, what would that question be?
    Mr. Travers. ``What is your single biggest concern about 
the terrorist threat going forward?''
    Senator Carper. Good. Would you answer that question?
    Mr. Travers. And my answer will be complacency.
    Senator Carper. People are always saying to us when we ask 
questions, they said, ``Thank you for that question.'' I will 
thank you for your question. [Laughter.]
    Mr. Travers. I was wondering if I was going to get out of 
here with just one question today.
    Senator Carper. No way.
    Mr. Travers. A few years ago, your predecessors, our 
predecessors, it would have been all terrorism all the time. 
One question, I am not complaining at all. I think it is 
reflective of all the very good work that has been done on your 
side of the dais, on our side of the dais. The country is much 
safer because of our counterterrorism efforts. But as I said in 
my opening statement, there are concerns, and there are really 
hard challenges that implicate policy and law, I believe, that 
we need to address, because, frankly, the bad guys are moving 
faster than we are. And so I do worry about taking our eye off 
the ball a little bit. There are really hard national security 
challenges we have to address, and they have supplanted 
terrorism to a degree. But we need to be careful.
    Senator Carper. All right. Thanks. Thanks so much.
    Thanks, Mr. Chairman.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Secretary Nielsen, first I want to thank you for coming to 
North Dakota for your visit to the Grand Forks Air Force Base 
to see your CBP facility there--we think the Director of the 
CBP, Kevin McAleenan, is doing a fine job--and also seeing our 
Grand Sky Technology Park. As you know, we were able to pass 
the Preventing Emerging Threats legislation led by this 
Committee, and I want to thank both the Chairman and Ranking 
Member for their work on it. I was pleased to be part of that 
legislation.
    We talked about how it was important legislation that you 
needed to counter UAS threats. Now that we have moved that 
legislation, can you tell me where you are in terms of standing 
up that effort both as far as what additional authorities you 
might need, what your plan is to stand up and make sure that we 
have that counter-UAS security both at the border and 
internally in the country, and also how facilities like the 
facility you saw in Grand Forks can be part of that?
    Secretary Nielsen. Well, sir, first and foremost, we have 
an implementation plan we have been working on for some time in 
anticipation of receiving the authority. We look forward to 
briefing you at your convenience and interest on the details of 
that.
    At this time we do not believe we need any additional 
authority. I started by thanking--let me do it again. I really 
appreciate the leadership of everyone on this Committee. It 
makes a tremendous difference to know that when we have an 
emerging threat, we can quickly work with Congress and get 
legislation we need.
    What I would say is as we look toward research and 
development (R&D)--and that is certainly an area that the 
facility that we visited in North Dakota could be very helpful 
with. But as we look toward research and development and look 
toward testing applications within civilian environments, it 
might be in that case that then we need to come back and talk 
in greater detail about how we can apply those.
    There are a lot of appropriate reporting requirements in 
the legislation beginning in 6 months. What I would like to do 
is come much sooner and talk with members who are interested 
about how we intend to use this.
    DOJ was also granted the authority, as you know. Their 
applications are slightly different than ours, but I believe 
that our general countermeasures and approach would be very 
similar. So I look forward to continuing to work with you on 
that.
    Senator Hoeven. As I think you are aware, I am also on DHS 
on the appropriations side. Is there other funding requirements 
or, in general, are you where you need to be to stand up this 
effort, both in terms of authority and appropriation?
    Secretary Nielsen. At the moment we are where we need to 
be, but I would like to just quickly move to the flip side of 
drones, to the positive use. As you know, up in your area we 
use drones, and we use that as an area to launch our drones, in 
particular to help us secure the Northern Border. We have nine 
that we use right now, Predator drones. But as we move forward, 
we would like to continue to work with you on how to expand our 
capability set with that use.
    Senator Hoeven. Well, and necessarily so. Grand Forks, just 
for example, 900 miles of border responsibility, all the way 
from, as you know, the Great Lakes on the east all the way out 
through most of the beautiful State of Montana. That is a long 
stretch, and we need drones to truly cover all that area.
    We are focused on the Southern Border, and we obviously 
need to be, but we have tremendous expanses with a lot of 
different terrain--lakes, mountains, plains, all of that--on 
the Northern Border. So I think this is a very critical part of 
our effort, and we want to work with you on it. Again, I 
appreciate you coming out and taking a look. As you know, we 
now have beyond visual line of sight authority there as well. 
So thank you.
    Secretary Nielsen. Thank you, sir.
    Senator Hoeven. Director Wray, how are we staying ahead of 
some of the cyber challenges? Your cybersecurity, we always 
think of your field agents and how tremendous they are. But how 
about your technology, your cyber staying ahead of the 
technology that you face, including cyber hacks and that kind 
of thing on the FBI?
    Mr. Wray. So thank you, Senator. This is something that we 
spend an enormous amount of time on, as you would imagine. We 
have cyber task forces, as you alluded to, in all 56 field 
offices, and I think one of the things people do not fully 
appreciate about those task forces is that they have about 184 
other agencies that have task force officers on our cyber task 
forces. We also have a Cyber Action Team, which is sort of a 
lead rapid deployment task force that we send out, depending on 
the incident. We have Cyber Assistant Legal Attache (ALATs), 
which are assistant legal attaches, in our foreign offices. And 
we are trying to partner more and more with the private sector.
    One of the things I think is a real challenge for law 
enforcement generally is the need to improve the digital 
proficiency, the cyber proficiency through the profession. We 
just cannot recruit enough cyber whiz kids who also have all 
the other qualities that you and I would both want in law 
enforcement. And so we are really focused on trying to improve 
the training that we can provide so that we can make sure our 
workforce is truly digitally savvy, and that is a big focus of 
emphasis. And we certainly will be using all the help we can 
get from Congress to enhance that.
    Senator Hoeven. Director Travers, I am going to make sure 
you get some more questions. In regard to ISIS, al-Qaeda, and 
those types of organizations, we are defeating them on the 
battlefield. How are we doing at both tracking them in terms of 
their efforts on the Internet, countering their efforts on the 
Internet, and then making sure that we are tracking somebody 
who may become radicalized in this country and countering that 
threat?
    Mr. Travers. Sir, it is amongst the largest questions, 
problems that we have----
    Senator Hoeven. And I want your evaluation of how well we 
are doing it, and are we on top of it?
    Mr. Travers. As the strategy that came out last week 
indicated, we have to do far better in the full range of non-
kinetic measures, and radicalization on the Internet is 
certainly one of them.
    We have come a long ways, I think, in the last few years. 
The private sector, the social media companies are much more 
willing to work with us than they were. They take down lots of 
people and lots of content. We are increasingly getting into 
difficult questions. There would be no agreed-upon definition 
of ``terrorist content,'' and that gets into free speech in a 
hurry. But we are making progress. I think the conversation is 
far more sophisticated, far healthier.
    I was in Europe last week on this very issue. There are a 
lot of concerns within the European Union (EU) on how well this 
is or is not going. It is going to be a large challenge for us 
going forward because as the terrorists get younger, they are 
getting better at this, and it poses massive issues for the 
intelligence community and law enforcement.
    Senator Hoeven. As Director Wray brought up, are you able 
to get the whiz kids, if you will, the people with the cyber 
training and talent that you need? Are you able to track those 
people?
    Mr. Travers. Generally speaking, data scientists are 
amongst the most difficult individuals for us to attract and 
retain because they are in huge demand across the private 
sector.
    Senator Hoeven. And so we need to be looking at more ways 
to attract and retain that type of talent, don't we?
    Mr. Travers. And we are investigating everything from 
bonuses for retention, yes.
    Senator Hoeven. Thank you.
    Chairman Johnson. Senator Daines. And this is, by the way, 
the first time I have had an opportunity to congratulate you on 
being the father of the bride. I am sure that it was a little 
bit more public than you had initially intended, but I hope you 
had a good day on Saturday. Take it away.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman. It was a great 
day. I appreciate that.
    Secretary Nielsen, Director Wray, Acting Director Travers, 
thanks for coming up to the Hill today before this Committee.
    Secretary Nielsen, it is good to see you again, and I want 
to thank you for your leadership at DHS. There has been a lot 
of talk this morning about what needs to be improved, but I 
also think we should take a moment to recognize truly the great 
work that you and the men and women at DHS do in keeping our 
country safe every day, 24 hours a day.
    We need to secure our borders. The Senator from North 
Dakota mentioned the long Northern Border that we have. In 
Montana, it is nearly 550 miles. From that perspective, it is 
going from here to Indianapolis, round numbers. It is a great 
distance. I appreciate that President Trump has made it clear 
that we are going to secure our borders. It is a difficult 
task, but I want to thank you for executing against that 
mission.
    As we think about securing our borders, it is a critical 
first step, certainly, in stemming illegal immigration, but it 
is also the drugs that pour into our country. And, remarkably, 
when we had this discussion last week in this very room, we do 
not know how many citizens we have in our country let alone how 
many millions of illegal immigrants are here. Dr. Dillingham 
was here last week, and he talked about how we do not ask that 
question of citizenship on the census form. Many of these 
illegal immigrants are harbored in sanctuary cities. This is a 
direct threat to public safety. Frankly, it is a blatant 
disregard to the rule of law.
    In 2018, ICE Homeland Security Investigations have led to 
the seizure of nearly 60,000 pounds of meth so far. That totals 
nearly half a billion dollars. In fact, 26,000 pounds of heroin 
with a street value over $700 million were also seized. These 
are huge amounts. It is also a testament to the work that you 
are doing. Yet some of these drugs make it to Montana. They 
come up through the Southern Border. They make it to Montana, 
and in Montana we are facing a meth and opioid epidemic. In 
fact, lives, families, neighborhoods are being destroyed.
    Last week the Senate passed an opioids package, and I 
fought to include the Mitigant Meth Act that expands the State-
targeted response to the opioid crisis grants to include Indian 
tribes as eligible recipients. Additionally, the STOP Act was 
included, which helps stop illegal drugs from coming in at the 
border or being shipped through the Postal Service.
    Secretary Nielsen, my question is: What steps can DHS take 
to better prevent these drugs from reaching and directly 
impacting Montana communities?
    Secretary Nielsen. Well, sir, first of all, in the interest 
of time let me just say I am happy to give you a much more in-
depth brief because there are so many answers to this question. 
But we start with international partnerships and international 
cooperation, so everyone from Interpol to Europol to all of the 
countries south of us, and then to include China when it comes 
to fentanyl, so work with them on--at the law enforcement to 
law enforcement.
    We use interagency task forces such as that out of Key West 
or out of South to track the shipments, the ships that are 
loaded with drugs as they approach our borders, and we work 
with all elements of the United States Goverment (USG) to 
interdict them.
    When they get to the border, we have the Coast Guard, we 
have TSA if they are coming in through land, we have CBP, and 
we work in that case in a targeted way to locate parcels or 
packages that might be of concern. We use non-intrusive 
detection equipment at the border to actually scan cars, etc.
    Once they get into the country, the next level of security 
is we work with local law enforcement and we work with 
different elements of the Department of Justice to include DEA, 
and we try to take down the whole entire network. So ICE has 
the Cyber Crimes Center. We look a lot about marketplaces on 
the Dark Web, how to take them down, how to remove the 
opportunity to sell that way.
    We also then do a lot of sharing, once we have targeted 
information, with State and local law enforcement so that they 
know it is there.
    When it comes to the mail, I mentioned before very 
appreciative of passage through this body of the STOP Act. We 
need that. CBP has trained all of its K-9s. We do do targeting, 
but we need to work with the post office to make sure that all 
of that mail is scanned.
    So we try to do a comprehensive way before it ever gets to 
the borders, at the borders, internal to the United States, in 
the mail, and then working with State and locals to take it 
down at that level.
    Senator Daines. Secretary Nielsen, thank you. I want to 
take it up to the 30,000-foot view here. In your opening 
statement, you noted that one of the greatest threats to the 
homeland today is the evolving nature of threats themselves, to 
include increasingly coordinated and sophisticated criminal 
activity. Specifically, as you assess threats, what do you 
believe are the top two to three greatest threats to the 
homeland as you look out over the next 12 to 24 months?
    Secretary Nielsen. So I would say, in general, what 
concerns me the most are these evolving threats because they 
are evolving and emerging so quickly. So in some cases, when we 
need additional authorities, we will come to you. Again, 
appreciate all the efforts of this Committee to meet our needs. 
But there is still a gap because, for example, even with 
drones--I now have the authority, but before I had the 
authority, I could not even do the research and development to 
develop the countermeasures to then apply them. So we have to 
narrow that gap in terms of when we see an emerging threat, 
fighting that.
    The transnational criminal organizations are taking all 
their crime online. They are inventing new crimes online. One 
that I find to be particularly abhorrent and I am working with 
my international colleagues on is incidents of live abuse. This 
is the situation where abusers can watch a child being abused 
online and give directions real time to the abuser to abuse 
that child. This is a very difficult crime to investigate, but 
we have to do more.
    So we see a proliferation of new and emerging crimes 
through not just the Internet but through very complex--these 
are now decentralized cartels essentially, so they have 
middlemen that are in common, but we are trying to move away 
from a whack-a-mole approach and dismantle the entire network.
    Senator Daines. As we think about these criminal 
activities, at what point do they become a homeland security 
risk?
    Secretary Nielsen. I believe that is now, sir.
    Senator Daines. As we think about lone wolf as well as 
homegrown extremists, what threshold must be crossed or what 
trigger tripped to invoke authorities and resources beyond what 
law enforcement agencies have organically?
    Secretary Nielsen. From a DHS perspective--and we work very 
closely with the FBI, as the Director mentioned, both on 
domestic terrorists as well as homegrown violent extremists--
hate is hate, violence is violence. What we have done at DHS is 
we have changed our programs to focus on the prevention of all 
terrorism through partnerships. So we do that through 
information sharing, we do that through awareness, we do that 
through counternarratives, we do that through 
counterradicalization, but we try to have a holistic approach. 
But I think what is important there to realize is we do not 
want to get to the point where a threshold has been crossed. We 
need to have a holistic approach to counter those narratives so 
that no one is radicalized.
    Senator Daines. Thank you, Secretary Nielsen.
    Chairman Johnson. Thank you, Senator Daines.
    Mr. Travers, I was also going to let you exercise your 
vocal cords. And, by the way, in my introduction I was not 
trying to point out your age. I was trying to point out really 
the length of extraordinary public service.
    I want to put the study of terrorism and response to 
terrorism chart\1\ back up there, and I just kind of want you 
to comment. Again, I realize there are problems with the data 
here, but I was shocked, quite honestly, to take a look at the 
2017 results. Can you just typify what all has happened? You 
know, this shows some measure of success. Of course, any death 
due to terrorism is one too many, but there is some progress 
being made. Can you just speak to that?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    Mr. Travers. A little bit, sir. Up through 2012 or so, NCTC 
maintained the database that supported the State Department's 
country reports on terrorism. We got out of the business for 
budgetary reasons, and so that data is now, I think, largely 
produced by the University of Maryland. They have had issues 
with the way they compile data.
    I think, but I cannot prove, that the very large bars are 
almost certainly Iraq/Syria-related, and so you have to be 
careful in terms of what it is you are counting. We used to 
focus on how many individuals were killed by vehicle-borne 
improvised explosive device (VBIEDs), for instance. I suspect 
some of this is large-scale insurgency, but I do not know.
    Chairman Johnson. OK. So the good news is we have certainly 
helped solve the problem in Iraq and Syria, but that is not to 
say that the threat has gone away. It has metastasized, it has 
spread, and we are just kind of seeing the normal level of 
threat now because we have those more unusual circumstances.
    Mr. Travers. That is correct. And there is some good news, 
I think, in terms of HVE attacks in Europe are down from where 
they were last year. Probably that is partly because their 
residence with the demise of the caliphate has declined. It is 
partly because we are seeing vast improvements in European 
efforts to share information and crack down on terrorism. So 
there is good news, to be sure.
    Chairman Johnson. So one of the solutions, obviously, is 
sharing information, awareness, just public awareness, which 
brings me to my next line of questioning for either or both, 
the Director and the Secretary. Bloomberg has, I think, done an 
excellent job of an investigative report on the super micro, 
the implantation of small little micro chips into these boards. 
I know Apple is denying it. A follow-on report seems like it is 
pretty sound reporting.
    Without getting into the specifics of that, unless you want 
to speak to whether it is true or not, what went through my 
mind immediately is how come I am finding out from Bloomberg 
but not in terms of contact from the Federal Government? We 
were made aware of Kaspersky Labs. I did not find out about it. 
Fortunately, we have a couple Committee Members that serve on 
the Intelligence Committee, and they were being briefed on it. 
But Kaspersky Labs was in business for a decade or more, 
becoming a larger and larger business, fully integrating 
themselves into our supply chain, into our personal computers, 
and we did nothing--again, my point being I think one of our 
best lines of defense against cyber attacks is just exposure. 
The fact that we have these high-profile attacks, whether it is 
Sony or Target--I will not list all of them--that has literally 
brought the information technology (IT) guy out of the basement 
and to the Chief Executive Office (CEO) level. It is incredibly 
important to have public exposure. I think we have a huge 
problem of overclassification and lack of notice.
    So, again, I would just kind of like to ask both of you, 
when did you find out about the whole situation with super 
micro and this implantation of chips in the supply chain?
    Mr. Wray. Well, I would say as to the newspaper article or 
the magazine article, I would just say be careful what you read 
in this context. Certainly I would say that I agree with you a 
thousand percent, Mr. Chairman, that awareness is a huge part 
of the defense, whether it is supply chain risks or cyber 
risks, and we are trying--and I also agree with you that there 
is an overclassification issue that sometimes affects that. I 
think that is sometimes a little bit of a red herring, because 
one of the things we have gotten better at doing in terms of 
raising awareness, in terms of victim notification, in terms of 
reaching out to, say, the private sector, victim companies, 
public sector when those agencies are affected, in some cases 
we can do briefings where we have nondisclosure agreements and 
things like that. But we are trying to get a lot more creative 
in how we can get information out sooner, because I think there 
is a recognition that there are way too many attacks and way 
too many threats for us to be able to investigate all of them. 
So we have to be able to get into the prevention business.
    Chairman Johnson. And, by the way, so if this is not 
accurate, I would like to have the FBI or somebody come out and 
say it is not, because we also do not want false information 
out there as well. Does that make sense? What prevents us from 
doing that?
    Mr. Wray. Well, I cannot speak for other agencies. On our 
end, we have to be very careful because we have very specific 
policies that apply to us as law enforcement agencies to 
neither confirm nor deny the existence of an investigation.
    Chairman Johnson. OK. I guess we turn to Secretary Nielsen 
then.
    Mr. Wray. But I do want to be careful that my comment not 
be construed as inferring--or implying, I should say, that 
there is an investigation. We take very seriously our 
obligation to notify victims when they have been targeted.
    Chairman Johnson. But, again, so much of cyber defense is 
threat identification and notification, right?
    Secretary Nielsen. Yes, sir. And we have adopted a ``shine 
the light'' approach. We have to stop the complacency and move 
to attribution and consequences. So one of the first things we 
did do was the Binding Operational Directive against Kaspersky. 
I cannot speak to why it was not done sooner.
    With respect to the article, we at DHS do not have any 
evidence that supports the article. We have no reason to doubt 
what the companies have said. We continue to look into it. What 
I can tell you, though, is it is a very real and emerging 
threat that we are very concerned about. So we are working very 
closely with the private sector, within our Federal family, and 
certainly to put our own house in order to make sure that we 
are locking down every step of that supply chain.
    Chairman Johnson. Before I go into another series of 
questions, quickly, to you, Secretary Nielsen, you have issued 
now a strategy on EMP/GMD. Can you just quickly summarize it? 
What is the primary finding out of that?
    Secretary Nielsen. The primary finding is, and you will not 
be surprised to hear me say this, sir, but that we need to do 
more. So we are starting with the energy sector and the 
communications sector. We need to do much greater depth of 
modeling to understand what the actual cascading effects would 
be.
    As you and I have discussed, in an extreme, if all of the 
lights go out and we have a long-term power outage, we do have 
an annex for that as part of our Federal interagency 
operational planning under the National Response Framework. So 
regardless of cause, we can respond and recover. But the cause 
is very important and understanding exactly how that will 
emanate is important.
    Also within that is research and development. We need to do 
some research and development to protect critical 
infrastructure systems and networks.
    Chairman Johnson. This is certainly one of those problems 
that we have been admiring for years. I am really looking to do 
something, and my suggestion always has been: What do we do if 
the electrical grid goes down, regardless of the cause, whether 
it is kinetic, whether it is cyber, whether it is EMP/GMD? And 
maybe we start there. Large power transformers have no 
replacements. I mean, I really am looking for action and an 
action plan to do something so we can mitigate any kind of 
damage.
    I have some more questions, but I am going to turn to 
Senator McCaskill, and then I will come back.
    Senator McCaskill. Secretary Nielsen, ports of entry where 
90 percent of the seizures of fentanyl are made, you are 4,000 
officers--well, to be specific, 3,908 officers short of your 
own staffing model, but yet--and I have discussed this before, 
your Department has not requested more for this.
    Do you agree that you are not adequately staffed at the 
ports of entry for the interdiction of fentanyl?
    Secretary Nielsen. As you know, Senator, it is a 
combination. So, first of all, to the extent that we have 
openings, we have open positions, we have to fill them, and we 
are working very hard to do that. As I mentioned previously, we 
are finally at a point where bringing folks on to duty, the 
number is now above the number that we are losing through 
attrition. So that is step one.
    Step two is that combination of technology, so what we have 
also done is we are cross-training some of the folks that we do 
have at the ports of entry so that they are all trained, for 
example, on the equipment; they can serve multiple positions. 
But if the basis of your question is do we need to do more at 
the ports of entry to stop drugs, the answer is yes.
    Senator McCaskill. In May, you said there is no suggestion 
you have a lack people to work with the K-9s or run the machine 
when you were here. The Inspector General, as you know, issued 
a report on September 24th that said, in fact, the lack of 
personnel is at the heart of the issue. I am quoting the report 
now: ``It is inadequate to prevent illegal drugs and contraband 
from entering the United States.''
    In addition to finding that you lack the resources and 
staffing, they also found that the targeting of packages that 
we are now doing has a very limited impact. Frankly, 
``limited'' is a kind word because it found that we are only 
targeting 0.01 percent of the packages for inspection.
    What is your sense of whether or not you can immediately 
begin to up the number in terms of the--because that is so 
minimal. The chances of us really uncovering how much fentanyl 
is coming in is very limited.
    I introduced a bill earlier this year to hire more officers 
at our ports of entry and mail facilities, and we can add the 
technology. But if we do not have enough people to run it, it 
does not do any good.
    Can you give me any sense of your sense of urgency on this?
    Secretary Nielsen. The sense of urgency is high. First of 
all, what we are doing--and that is what I was trying to 
reference. So what we have done, first of all, is we have taken 
personnel that had a very limited role, and we have expanded 
their roles, so that everyone at the port of entry--part of the 
problem with the equipment is there was only a very small part 
of that force that was trained on the equipment. So we have 
fixed that or are starting to fix that.
    With respect to the targeting, we are increasing our 
targeting. A lot of that comes from the intel community, so we 
were strengthening partnerships there, doing more dot 
connection, to use Director Travers' language. And with respect 
to the packages, there are a couple different ways we do that. 
If it is a package via a car or via person, the dogs play a 
role, K-9s play a role. Secondary inspections are much higher, 
as you know, in terms of pulling a car over, and we constantly 
find drugs in cars through the non-intrusive detection 
equipment.
    But what I would love to do is come and talk to you more 
about it and kind of walk through----
    Senator McCaskill. Yes, because I would like us to get on 
the same page about what you need.
    Secretary Nielsen. Understood.
    Senator McCaskill. I think, honestly, I am going to be 
candid here. I think there has been so much political attention 
around border security in Americans' minds, and I think, 
frankly, in the President's mind. He sees this as agents along 
the border all across the Southern Border. And because there 
has been all that political attention there, there has been 
very little attention directed to this real vital need that we 
have.
    We are dying from this fentanyl in record numbers all 
across my States. I talk to families every week, Madam 
Secretary, who have lost a child to illegal fentanyl. The sad 
thing about this is we could do this. We know how to interdict. 
I can guarantee you that the Director of the FBI can certainly 
tell you that we know how to interdict. We just have not put 
enough boots on the ground around this problem, and I think 
part of that is because it is the shiny object over here of are 
we securing the entire Southern Border.
    I want to secure the border. I certainly do not want to 
shirk that responsibility. But I want to do this in a way that 
is smart and really is addressing the threat to our country.
    Finally, I wanted to ask you about the National Defense 
Authorization Act (NDAA) where we were able to include a 
governmentwide prohibition on the use of Kaspersky products and 
services. Are you in charge of overseeing the execution of this 
ban?
    Secretary Nielsen. So we do it in conjunction with OMB and 
others within the government. But as you know, we do have point 
four Federal networks, so from that perspective, we are still 
implementing our Binding Operational Directive, which achieves 
in some senses the same goal.
    Senator McCaskill. Do you have data on the products and 
services that include the Kaspersky code?
    Secretary Nielsen. We do have some data, yes, ma'am. We are 
happy to share that with you.
    Senator McCaskill. We would like that.
    The legislation required that all Kaspersky products and 
services be removed from government systems by October 1, 2018. 
Obviously, that date has passed. Did we meet that deadline? 
Have they been removed?
    Secretary Nielsen. I do not have that information, but I am 
happy to get it to you today.
    Senator McCaskill. OK.
    Thank you.
    Chairman Johnson. So let me preface my next line of 
questions with a couple of statements and a little history.
    First, I want to underscore what I think a number of 
Members have already stated. We thank you for your service. We 
truly respect it. The men and women that you serve with, many 
of them putting their life on the line to keep this Nation 
safe, we literally are in awe of their service and sacrifice. 
So, again, thank you for that.
    Second, in terms of this Committee's history under my 
chairmanship with this next issue, we have been very 
restrained. Under our Committee's jurisdiction is Federal 
records, and when we saw the abuse of the email system at the 
State Department with Secretary Clinton, we did a lot of 
oversight, 3 years' worth of investigation. Never held a 
hearing, was not interested in a show trial, just wanted to get 
to the bottom of it.
    After the election, when President Trump said, we are going 
to leave Secretary Clinton alone, we pretty well closed up shop 
and ended our investigation. And then the Peter Strzok-Lisa 
Page texts appeared, and our investigation turned into an 
investigation of the FBI's investigation, the email scandal, 
and this kind of morphed into the whole Russian investigation.
    There, again, we were very patient, relied on the Office of 
Inspector General (OIG). I think Michael Horowitz has done a 
great job, issued a great report. I read every page of it. 
After that report was issued, we chose after two other 
committees, one Senate, one House, held a hearing, we did not 
hold a hearing. A lot of my questions were answered, others 
were not, and we followed up with an oversight letter.
    So, again, I am just trying to lay out basically how I have 
handled this thing, not try to make--no show trials, just 
trying to get to the bottom of it.
    And so, Director Wray, my first question is: Are you 
concerned about the credibility of the FBI? I actually have 
three: credibility, integrity, and impartiality. I am not even 
going to ask impartiality and integrity because I think under 
your leadership I know your answer. But what about the 
credibility? This is a legitimate concern. Are you concerned 
about that?
    Mr. Wray. Senator, I take the credibility of the FBI 
deathly seriously. I will tell you that I try to make sure that 
I am focused on our credibility with the people who know us 
through our work. And when I get out and about--I met with 
close to 3,000--and when I say ``meet,'' I am not talking about 
speaking in a group. I am talking about shake hands, talk to, 
meet--close to 3,000 of the FBI's partners, Federal, State, 
local, foreign. I have met with victims and their families. I 
have been to, I think, 43 of our 56 field offices. And what I 
find over and over and over and over again, from the people who 
actually know the facts--back to the response I gave to Senator 
Carper--the credibility of the FBI is rock solid.
    Chairman Johnson. Again, that is the 99 percent. I am 
talking about what we have seen over the last couple years, OK, 
under Director James Comey's leadership. Senator Paul touched 
on it to a certain extent. I can go through the list. Deputy 
Acting Director McCabe, the OIG report on that, which, again, 
was very detailed. He is under investigation now; the Page-
Strzok texts; the Rod Rosenstein memo about Director Comey. 
There are a number of reasons, legitimate concerns, about what 
happened to the FBI. Do you acknowledge that, and does that 
concern you?
    Mr. Wray. Certainly I take anybody's concerns seriously. I 
think the Inspector General, I agree with you, did a very 
thorough and professional job, and I have taken his 
recommendations very seriously. There have been disciplinary 
decisions, which I cannot discuss in this forum, of course, 
that have been made. I expect our people to be held to the 
highest standards, all of them, all 37,000 of them. And I am 
going to insist on that. But I am going to insist on doing it 
by the book.
    Chairman Johnson. We are also going to have an Office of 
Inspector General report on the leaks, which were very 
troubling in terms of what the initial OIG report on the 
Clinton investigation came. Who investigates the investigator? 
The FBI is a premier investigatory body of this Nation. Who 
investigates the investigator?
    Mr. Wray. I think the short answer would be the Inspector 
General, which is outside of the FBI. When there have been 
instances where there has been misconduct by somebody at the 
FBI--which we are 110 years old and we have had our share of 
bumps and bruises along the way. There is a reason why the 
Inspector General, which is, again, outside the FBI, has that 
authority.
    Chairman Johnson. Would there be another body that might 
investigate the investigator?
    Mr. Wray. Besides the Inspector General? I think that would 
be the principal one that I would think of. They have done a 
very thorough job.
    Chairman Johnson. Well, let me suggest the principal one 
should be this body--Congress--which kind of gets me to my next 
line of questions. I have sent to you I would say five primary 
letters of oversight. First of all, do you see those? Do you 
read those?
    Mr. Wray. I am aware, Mr. Chairman, that you have had a 
number of letters. I know we have produced thousands of pages, 
provided in camera review of others. We do need to get better, 
let me be clear. We need to get better at our responsiveness. 
We have lots and lots of requests from lots of different 
committees, but that is not an excuse.
    Chairman Johnson. I understand. One of the reasons I kind 
of laid out the history of this is I have been very restrained. 
I have really kept--by the way, I asked staff the kind of 
questions they want me to ask you. Here is their list. I am not 
going through their list, OK?
    We have asked very pointed questions on some very pointed 
issues. The documents you are primarily giving us are the ones 
that you are giving us as a courtesy that have been requested 
by the House. I never asked for 1.2 million. I have five 
letters. Two I have no response on; three I have partial 
response. I do not want to go all the way through those today, 
but what I do want to ask: Will you commit to meeting with me 
to go over those oversight requests?
    Mr. Wray. We would be happy to sit down with you and see if 
we can get better in our responsiveness. I am frustrated that 
you are frustrated.
    Chairman Johnson. Now, one of the outstanding suspicions is 
in terms of the FISA warrant. First, let me ask you, how many 
people in government have seen the unredacted FISA 
applications? Just a ballpark. Do you have any idea?
    Mr. Wray. I really do not have that answer, sir.
    Chairman Johnson. It is probably dozens, right?
    Mr. Wray. The unredacted----
    Chairman Johnson. Do you know whether any Member of 
Congress has actually looked at the unredacted FISA 
application?
    Mr. Wray. I know we have a classified reading room that 
certain members of the Intelligence Committees have had access 
to. But exactly what is in that and so forth, I do not know.
    Chairman Johnson. I am not allowed to see it, right? So 
there are some people in Congress that maybe have a little bit 
higher security clearance than somebody like myself or Senator 
McCaskill.
    Mr. Wray. Well, again, I think we try very hard, the entire 
intelligence community, including the FBI, to balance both our 
need to be transparent and responsive to oversight, including 
this Committee, but also to protect sources and methods. And I 
think there are ways to accommodate that, and I think we have 
tried very hard to do that.
    Chairman Johnson. Again, you said--and we all want to 
protect sources and methods. Nobody wants to put national 
security at risk. I think what we are seeing--and this is why 
you have a high level of suspicion--is it is more protecting 
the agency and some embarrassments in terms of some actions. It 
is kind of like ripping off a Band-Aid. Why not rip off the 
Band-Aid? Why are we continuing to let this issue linger? Why 
not have full transparency?
    Mr. Wray. I think the topics that we are talking about are 
extremely sensitive intelligence operations. I understand the 
attraction of the ``rip off the Band-Aid'' approach, but I also 
understand that in many cases we are talking about situations 
that involve foreign partner relationships, tradecraft, and all 
kinds of other things that we need to be very careful about 
protecting.
    Chairman Johnson. Let me talk about something that has 
nothing to do with foreign operations or tradecraft. We sent a 
letter--and I know other House committees have done so as 
well--to get the memo from Andrew McCabe describing his meeting 
with Rod Rosenstein and Lisa Page. I have asked for a response 
date by October 15th. Will we get that memo?
    Mr. Wray. Well, we would be happy to get back to you on 
that. I will tell you that we also have an ongoing Special 
Counsel investigation, and that is not our----
    Chairman Johnson. That is always the problem, which is one 
of the reasons I did not agree with the Special Counsel at this 
point in time. It prevents the people's House, the people's 
representative from actually getting to the truth and holding 
people accountable. It has held up--I have been doing this now 
for 4 years as Chairman, and every time there is a criminal 
investigation, Congress cannot get information, and so the 
American people do not get information.
    There were meetings, obviously, between Bruce Ohr and the 
FBI, so you have 302s probably produced on those. Is there any 
reason or rationale why we would not be able to see those?
    Mr. Wray. Sorry, I did not mean to interrupt you. As to any 
specific item, we are happy to take a look at it and see where 
it stands. Part of the reason I cannot answer specifically is 
that we have had so many oversight requests from so many 
different committees about so many different documents. I do 
know that there is a very serious, ongoing criminal 
investigation that involves grand jury secrecy and the need to 
protect the integrity of that investigation. Whether the 
particular documents that you are asking for and the particular 
requests run afoul of that, I would have to have somebody take 
a look at it.
    Chairman Johnson. OK. So I will not go any further, but 
will you make a commitment to set up a meeting with me where we 
can go through all this information, including the FBI's 
involvement in the John Doe investigation in Wisconsin? We sent 
you a letter there we got a non-response response. These are 
serious questions, very targeted. Again, I am incredibly 
sensitive to the jobs you have here. I want you keeping this 
Nation safe, primarily focused on that. That is why I would 
like to get to the bottom of this, get it behind us, and move 
on.
    Mr. Wray. We would be happy to sit down with you.
    Chairman Johnson. OK. Thank you.
    Senator McCaskill, do you have anything?
    Senator McCaskill. I do not.
    Chairman Johnson. Again, I want to thank all three of you 
for your dedicated service, your families as well. You probably 
do not spend a whole lot of time with your families as you are 
used to, so we understand this is a complete family sacrifice 
as well. Again, the men and women that serve with you, they are 
extraordinary and we understand that, and we thank them for 
their service.
    The hearing record will remain open for 15 days until 
October 25th at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:06 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
